<html>
<title> - LOCAL EFFORTS TO COUNTER THE TERROR THREAT IN NEW YORK CITY: A RETROSPECTIVE AND A ROADMAP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    LOCAL EFFORTS TO COUNTER THE TERROR THREAT IN NEW YORK CITY: A 
                      RETROSPECTIVE AND A ROADMAP

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2019

                               __________

                           Serial No. 116-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-473 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                           
                           ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
              Nicole Tisdale, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                        
                        C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. John J. Miller, Deputy Commissioner, Intelligence and 
  Counterterrorism, New York Police Department:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Thomas Currao, Chief of Counterterrorism, Fire Department of 
  the City of New York:
  Oral Statement.................................................    13
  Prepared Statement.............................................    17
Mr. Louis P. Klock, Deputy Superintendent of Police, Port 
  Authority of New York and New Jersey:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23

                                Appendix

Questions From Chairman Max Rose for John J. Miller..............    41
Questions From Chairman Max Rose for Thomas Currao...............    41
Questions From Chairman Max Rose for Louis P. Klock..............    42

 
    LOCAL EFFORTS TO COUNTER THE TERROR THREAT IN NEW YORK CITY: A 
                      RETROSPECTIVE AND A ROADMAP

                              ----------                              


                          Monday, May 6, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Intelligence and Counterterrorism,
                                                 Staten Island, NY.
    The subcommittee met, pursuant to notice, at 3:07 p.m., in 
Staten Island Borough Hall, 10 Richmond Terrace, Staten Island, 
NY, Hon. Max Rose [Chairman of the subcommittee] presiding.
    Present: Representatives Rose [presiding], Walker, and 
King.
    Also present: Representatives Pascrell and Clarke.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order.
    Good afternoon, everybody. It is good to be home here on 
Staten Island, New York City. I am really proud to be convening 
my first subcommittee field hearing, and no better place to be 
doing it than here; and, of course, no more important issue, in 
my book, than that of New York City's security.
    As many of you know, this is the first time in the history 
of this subcommittee or this committee that a representative 
from New York City has served as the Chairman of the 
Subcommittee on Intelligence and Counterterrorism. I am honored 
to be joined by the Ranking Member of the subcommittee, Mr. 
Mark Walker of North Carolina, as well as 3 Members from the 
New York and New Jersey delegation: Ms. Yvette Clarke from 
Brooklyn, who is en route; Mr. King from Long Island; and Mr. 
Pascrell from Paterson, New Jersey.
    Today's hearing, ``Local Efforts to Counter the Terror 
Threat in New York City: A Retrospective and a Roadmap,'' could 
not be more important, especially as we approach the 20th 
anniversary of 9/11.
    The NYPD and our law enforcement agencies continue to make 
huge strides in keeping New York City safe. We are now the 
safest big city in the country, and for that I do want to 
acknowledge the gentlemen in front of us for everything you 
have done to help make that the case. I know that does not just 
happen by osmosis.
    I am looking forward to hearing about your progress over 
the last 2 decades, and hearing about your concerns so we can 
make sure that Congress continues to support your work.
    New York City continues to face terrorist threats. Since 9/
11, New York has been targeted over and over by terrorists 
seeking to do us harm. The men and women of law enforcement in 
this city continue to thwart these attempted attacks.
    In recent years, the threat from domestic terrorism has 
risen dramatically. Across the country, we have seen a rise in 
terrorist attacks on our holiest and most sacred places, houses 
of worship. Just 2 weeks ago, Jewish worshipers in the Chabad 
of Poway Synagogue in California were brutally attacked by a 
domestic terrorist. One woman, Lori Kaye, was murdered. That 
attack happened 6 months to the day after another murderous 
rampage in the Tree of Life Synagogue in Pittsburgh.
    Here in New York City, in March 2017, we saw another 
domestic terrorist murder an African-American man, Timothy 
Caughman, with a sword, as the first in a planned rampage 
targeting black men. Of course, we continue to face threats 
from jihadist-inspired terrorists. In October 2017, we saw an 
extremist ram a pickup truck into pedestrians and cyclists in 
Lower Manhattan, killing 8 people and wounding 11 others within 
eyeshot of Ground Zero.
    It goes without saying that the job of keeping New York 
City safe is an incredibly complex and rapidly-evolving 
challenge. Thankfully, we have the best men and women on the 
job in the country.
    As for us, Congress should be there to provide assistance 
where it is needed, and provide oversight where things are not 
working quite as well as they should, especially when it comes 
to information sharing with the Federal Government to counter 
terrorist attacks. We need to make sure that you are not just 
sending us information but that the Federal agencies are 
shooting it right back to you. That is why we are holding this 
hearing today.
    After the Ranking Member delivers his opening statement, I 
will introduce these three distinguished gentlemen, 
representing the men and women working to keep this city safe.
    Just on a closing note, there is a tremendous amount of 
media focus on a myriad of different public safety issues, from 
the global to the domestic. But it seems as if the issue of 
counterterrorism is no longer in the limelight. Well, today we 
are doing a hearing centered around that, centered around New 
York City, which has a bulls-eye on it, and might always will, 
to ensure that this remains an issue that we focus on.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                              May 6, 2019
    As many of you know, this is the first time in the history of this 
committee that a representative from New York City has served as 
Chairman of the Subcommittee on Intelligence and Counterterrorism. I'm 
honored to be joined by the Ranking Member of the subcommittee, Mr. 
Mark Walker of North Carolina, as well as 3 Members from the New York 
and New Jersey delegation--Ms. Yvette Clarke from Brooklyn, Mr. King 
from Long Island, and Mr. Pascrell from Paterson, New Jersey.
    Today's hearing, ``Local Efforts to Counter the Terror Threat in 
New York City: A Retrospective and a Roadmap,'' could not be more 
important, especially as we approach the 20th anniversary of 9/11.
    The NYPD and our law enforcement agencies continue to make huge 
strides in keeping New York City safe. We're now the safest big city in 
the country.
    I'm looking forward to hearing about your progress over the last 2 
decades, and hearing about your concerns, so I can ensure Congress 
continues to support your work.
    New York City continues to face terrorist threats. Since 9/11, New 
York has been targeted over and over by terrorists seeking to do us 
harm. And the men and women of law enforcement in this city continue to 
thwart these attempted attacks.
    In recent years, the threat from domestic terrorism has risen 
dramatically. Across the country, we've seen a rise in terrorist 
attacks on our holiest and most sacred places--houses of worship. Just 
2 weeks ago, Jewish worshipers in the Chabad of Poway synagogue in 
California were brutally attacked by a domestic terrorist. One woman, 
Lori Kaye, was murdered. That attack happened 6 months--to the day--
after a white supremacist's murderous rampage in the Tree of Life 
Synagogue in Pittsburgh. Here in New York City, in March 2017, a 
domestic terrorist murdered an African-American man, Timothy Caughman, 
with a sword--as the first in a planned rampage targeting Black men. 
And of course we continue to face threats from jihadist-inspired 
terrorists. In October 2017, an Islamist extremist rammed a pickup 
truck into pedestrians and cyclists in Lower Manhattan, killing 8 
people and wounding 11 others.
    It goes without saying that the job of keeping New York City safe 
is an incredibly complex and rapidly-evolving challenge. Thankfully, we 
have the best women and men on the job.
    As for us, Congress should be there to provide assistance where 
it's needed, and provide oversight where things aren't working quite as 
well as they should--especially when it comes to information sharing 
with the Federal Government to counter terrorist attacks. We need to 
make sure that you're not just sending information to Federal agencies 
without them sharing information with you. That's why we're holding 
this hearing today.

    Mr. Rose. Again, with that, I thank all of our witnesses 
for joining us this morning, and I now recognize the Ranking 
Member of the subcommittee, Mr. Walker, for an opening 
statement.
    Mr. Walker. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing, as well as the staff for their 
hard work in setting it up and certainly inviting me to this 
district here on Staten Island.
    Before we get started, I want to just take a moment to 
remember Officer Jordan Harris Sheldon's family, a young police 
department gentleman from North Carolina who was killed in the 
line of duty this past Saturday evening.
    I would also just like to take a point of privilege to 
thank Mr. Peter King for his years of work in representing New 
York and being really one of the lead people, past Chairman of 
this committee, and all the great work that he has done over 
the years.
    There is no question that New York City is a major terror 
target. The city's law enforcement and first responder 
community have worked tirelessly to identify, prevent, deter, 
and mitigate threats in the region.
    Since the September 11, 2001 terror attacks, the threat 
landscape has shifted. We once principally faced threats 
planned and directed by al-Qaeda senior leaders. However, the 
last few years have seen a rise in lone-wolf actors radicalized 
by ISIS on-line propaganda.
    ISIS has exploited social media to inspire these 
individuals to use knives and vehicles to carry out attacks on 
soft targets anywhere and at any time they can. The territorial 
defeat of ISIS does not leave us immune to their continued 
attempts to coordinate and inspire attacks on our soil. The 
attacks on Easter targeting Christians in Sri Lanka and the 
recent release of a new video of ISIS leader al-Baghdadi 
demonstrate that the group still remains a threat.
    Additionally, we cannot forget that al-Qaeda and other 
Islamist terror groups remain intent on targeting the West, as 
the Chairman clearly identified. It is clear that domestic 
extremists are following in the footsteps of foreign terrorists 
by using social media platforms to spread propaganda and create 
echo chambers of hate. Religious institutions from all faith 
groups are being targeted by both domestic and internationally-
inspired groups.
    Targeting innocent people in their place of worship is one 
of the vilest acts of terrorism, and we must do a better job of 
identifying plots and stopping these attacks. Close 
coordination between Federal, State, and local entities is 
vital to counterterrorism defense both on the international and 
domestic fronts.
    I look forward to hearing from the witnesses on whether 
they are receiving the necessary information and sharing 
support, training, and coordination from Federal partners. It 
is an honor to be here today to receive testimony from this 
distinguished panel, who all 3 I had been able to get a chance 
to meet earlier. I want to thank them for their service and for 
advising this subcommittee on terrorism threats facing the 
homeland, lessons learned, and emerging threats.
    Thank you, and I yield back the balance of my time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                              May 6, 2019
    I want to thank Chairman Rose for holding this hearing and inviting 
me to his District. There is no question that New York City is a major 
terror target. The city's law enforcement and first responder community 
have worked tirelessly to identify, prevent, deter, and mitigate 
threats in the region.
    Since the September 11, 2001 terror attacks, the threat landscape 
has shifted. We once principally faced threats planned and directed by 
al-Qaeda senior leaders.
    The last few years have seen a rise in lone-wolf actors radicalized 
by ISIS on-line propaganda.
    ISIS has exploited social media to inspire these individuals to use 
knives and vehicles to carry out attacks on soft targets.
    The territorial defeat of ISIS does not leave us immune to their 
continued attempts to coordinate and inspire attacks on our soil.
    The horrible attacks on Easter targeting Christians in Sri Lanka 
and the recent release of a new video of ISIS-leader al Baghdadi 
demonstrate that the group remains a threat.
    Additionally, we cannot forget that al-Qaeda and other Islamist 
terror groups remain intent on targeting the West.
    It is clear that domestic extremists are following in the footsteps 
of foreign terrorists by using social media platforms to spread 
propaganda and create echo chambers of hate.
    Religious institutions from all faith groups are being targeted by 
both domestic and internationally-inspired groups.
    Targeting innocent people in their place of worship is one of the 
vilest acts of terrorism and we must do a better job of identifying 
plots and stopping these attacks.
    Close coordination between Federal, State, and local entities is 
vital to counterterrorism defenses--both international and domestic.
    I look forward to hearing from the witnesses on whether or not they 
are receiving the necessary information sharing support, training, and 
coordination from Federal partners.
    It is an honor to be here today to receive testimony from this 
distinguished panel. I want to thank them for their service and for 
advising this subcommittee on terrorism threats facing the homeland, 
lessons learned, and emerging threats.

    Mr. Rose. Thank you, Ranking Member.
    I also want to sincerely thank you for acknowledging the 
importance of New York City security for the entire country, as 
well as the lessons learned for the entire country as to what 
our wonderful agencies are doing here on the ground.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 6, 2019
    Since his first day in Congress, the Chairman has been a fierce 
advocate for the men and women of the city of New York Police 
Department, the Fire Department of the city of New York, and the Port 
Authority of New York and New Jersey. [Chairman Rose's] decision to 
hold today's field hearing underscores his commitment to law 
enforcement and first responders serving in and around Staten Island.
    Nearly 18 years after the September 11 attacks, we must continue to 
do all we can at the Federal, State, and local levels to prevent future 
attacks. The Federal Government needs to support State and local 
partners in their efforts. For example, the Federal Government provides 
vital funding through grant programs for State and locals to secure 
their communities.
    Unfortunately, the Trump administration again proposed significant 
cuts to these programs. This is unacceptable. When it comes to securing 
communities from current and emerging threats, we should not be asking 
our State and local partners to do more with less.
    Instead, we need to give them the resources they need to work 
alongside their Federal partners on behalf of their communities and the 
American people.
    The Federal Government also spearheads critical information-sharing 
practices. We must ensure those channels remain open and that 
jurisdictional barriers do not inhibit the Federal Government and its 
partners from safeguarding those we serve. I hope that we hear about 
the influence the greater New York City community's resilience plays in 
their counterterrorism policies.
    Time and time again, this city has refused to back down in the face 
of terror. The agencies represented here today are on the front line of 
defending our Nation from both domestic and international threats. That 
is why it is so important to hear their testimony and take it back to 
Washington to use in the committee's work.

    Mr. Rose. Additionally, I ask unanimous consent that the 
Members not serving on the subcommittee shall be permitted to 
sit and question the witnesses, as appropriate.
    Without objection, so ordered.
    I welcome our panel of witnesses. Our first witness is Mr. 
John J. Miller, deputy commissioner for intelligence and 
counterterrorism at the New York Police Department. Prior to 
this position, Mr. Miller served as the deputy director of the 
Intelligence Analysis Division at the Office of the Director of 
National Intelligence.
    Next we are joined by Mr. Thomas J. Currao, who currently 
serves as the chief of counterterrorism at the Fire Department 
of the city of New York. Prior to joining the FDNY, Mr. Currao 
was employed by the Rockland County Board of Cooperative 
Education Services as a health and safety technician.
    Finally, we have Mr. Louis P. Klock, who serves as the 
deputy superintendent of police at the Port Authority of New 
York and New Jersey.
    For both Mr. Thomas Currao and Mr. Klock, we recognize you 
for this being the first time that you are testifying before 
Congress.
    Mr. Miller, this may be your 100th. We also recognize you 
for that.
    [Laughter.]
    Mr. Rose. Without objection, the witnesses' full statements 
will be inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Miller.

STATEMENT OF JOHN J. MILLER, DEPUTY COMMISSIONER, INTELLIGENCE 
        AND COUNTERTERRORISM, NEW YORK POLICE DEPARTMENT

    Mr. Miller. Good afternoon, Chairman Rose, Ranking Member 
Walker, and Members of the subcommittee. I am John Miller, 
deputy commissioner of intelligence and counterterrorism for 
the New York City Police Department. On behalf of Police 
Commissioner James P. O'Neill and Mayor Bill de Blasio, I am 
pleased to testify before your subcommittee today to discuss 
the NYPD's efforts to fight modern terrorism and the evolution 
of threats to New York City.
    Since September 11, 2001, we have seen New York City become 
the safest big city in America. That is in terms of crime 
reduction. We have achieved numbers that we have not seen since 
the early 1950's. But that said, the threat of terrorism since 
September 11, 2001 has not abated. That tragic day forever 
changed how the NYPD views its mission and forced us to 
recognize that we must be proactive as a police department in 
our efforts to prevent both home-grown and international 
terrorism in our city. Soon after 9/11, the NYPD became the 
first major city police department to develop its own 
significant in-house counterterrorism infrastructure, operating 
throughout the city, throughout the United States, and even the 
world to share intelligence and develop techniques to combat 
this continually evolving threat.
    The one thing that undergirds all of those counterterrorism 
efforts, all that intelligence gathering, is what drives our 
neighborhood policing philosophy overall, and that is 
collaboration and collective problem solving. That is 
collaboration with our Federal, State, local, and private 
partners. It is too vital, the threat of terrorism, which 
recognizes no borders and often does not distinguish between 
Government and civilian targets. In fact, this collaboration, 
which includes my fellow panel members, both the Port 
Authority, the Fire Department, the MTA, as well as many 
others, serves as the backbone of the NYPD's counterterrorism 
philosophy.
    While my submitted testimony provides significantly greater 
detail and numbers about our counterterrorism efforts, I would 
be remiss if I did not briefly outline our Government and 
private-sector partnerships, our counterterrorism initiatives, 
and our portfolio of protective equipment, which are extensive 
and always leveraged in a way that ensures maximum protection 
for both the public safety as well as civil liberties.
    The NYPD is a significant participant in the Joint 
Terrorism Task Force. We have over 120 detectives assigned to 
the New York JTTF. It is the Nation's oldest. It started in 
1980. We have operations like Operation Sentry, which coalesces 
275 different law enforcement partners from around the country; 
Operation Nexus, where the NYPD assists businesses Nation-wide, 
with a focus on New York City, in identifying suspicious 
transactions that might be linked to terrorist plots; and, of 
course, NYPD Shield, which established a vital communications 
network between the NYPD and approximately 20,000 Shield 
members in the private sector. Those are from businesses large 
and small, and organizations throughout the country now. The 
Shield program is being replicated Nationally by other police 
departments, where we have sent teams to help them learn the 
way to set it up, to operate, and manage it.
    As part of the Securing the Cities initiative, we have 
created a security infrastructure which includes the placement 
of radiation detection equipment in neighboring jurisdictions 
at key points of entry to the five boroughs so that the city is 
virtually ringed with a radiological alarm system.
    The Department also participates in multi-agency super 
searches that are joint operations to focus manpower at 
sensitive transit locations such as bridges, ferries, and 
tunnels, and that is conducted in partnership with the Port 
Authority Police, the Amtrak Police, the MTA Police, New Jersey 
Transit Police, as well as the FBI, TSA, and in large part with 
the National Guard Shield Group, which is part of the 
protection package for all of those locations.
    We deploy a critical response command. That is over 525 
specially-trained, specially-armed police officers as one of 
our first lines of defense against any threat, with a 
particular focus on the active shooter.
    We deploy our trained vapor wake dogs that are able to 
sense mobile threats and explosive particles. That means if you 
think of a Boston Marathon type of scenario, not just using an 
explosive detection canine to examine a package that is left in 
a doorway, but a scenario where someone is carrying explosives 
through a crowd at a major event, these dogs can put you on the 
trail of that individual, and there is a tactical plan that 
goes with that.
    We employ expert civilian analysts who study terrorist 
groups, trends, and methods of attack.
    Through our International Liaison Program, detectives are 
embedded with fellow law enforcement agencies in 13 foreign 
countries, including France, Spain, Jordan, the UAE, Qatar, 
Singapore, and Israel.
    Across the city, we have distributed approximately 3,000 
radiation pagers and nearly 4,000 radiological dosimeters, in 
addition to the installation of highly sensitive detection 
equipment on the boats, helicopters, and a fixed-wing aircraft 
we use to patrol New York Harbor. We use vehicles that patrol 
our streets with other detectors. Our Federally-funded Domain 
Awareness System, or DAS, receives data from real-time sensors, 
including radiological and chemical sensors, shot spotter 
information to detect gunfire in the streets, information from 
9-1-1 calls, hundreds of license plate readers, and live feeds 
from thousands of CCTV cameras around the city.
    The DAS system makes it possible to scan footage for 
specific objects, such as an unattended bag, a car driving 
against the flow of traffic or in a restricted area, suspicious 
behavior such as a person walking through a restricted area. 
The DAS' advanced graphical interface and mapping capability 
allows us to monitor arising threats and to guide our response 
if an attack should occur.
    We also design and implement large-scale counterterrorism 
projects, including counterterrorism training for the entire 
patrol force and other law enforcement agencies; identifying 
critical infrastructure sites and developing protective 
strategies for those sites; researching, testing, and 
developing plans for the use of emerging technologies used to 
detect and combat chemical, biological, radiological, nuclear, 
and explosive weapons; developing systems and programs to 
increase harbor security, which includes proactive deployment 
and mapping of background radiation in the Port of New York and 
New Jersey; and interfacing with the New York Office of 
Emergency Management.
    The NYPD's Counterterrorism and Intelligence Bureaus 
utilize equipment and deploy programs and initiatives which, 
without continued and increased Federal funding, would not 
exist in their current forms, or even at all. Federal funding 
is critical to our efforts, and it is a serious cause for 
concern when we see such Nation-wide funding decrease by $26.2 
million from 2008 levels, and hear about proposals to cut 
funding even further. The NYPD relies on this funding to 
protect New York against terrorist attacks and to strengthen 
homeland preparedness, including the security of critical 
transportation and port infrastructure.
    Notwithstanding our extensive efforts, violent extremists 
of all stripes, both foreign and home-grown, count New York 
City as their No. 1 target. What makes our unenviable position 
on this list even more concerning is the evolution of the 
terror framework in the modern day. What we once saw as threats 
to our homeland coming in large part from well-funded state and 
non-state actors who established training camps, attracted 
recruits to these camps, trained these recruits and planned 
attacks from these centralized locations, and dispatched 
individuals to carry out these attacks, we now see the primary 
threat as one that is decentralized and carried out by so-
called ``lone wolves.'' Traditional brick-and-mortar terror 
camps and infrastructures have been replaced with websites, 
chat rooms, and on-line manuals. This is the difference between 
a directed terrorist and an inspired terrorist. Largely gone 
are the days when groups such as ISIS and al-Qaeda provide us 
with the opportunity to locate, surveil, and infiltrate a 
training camp, or gather intelligence and identify bad actors, 
learn of the group's methods and techniques and future plans 
and targets. Instead, tech-savvy extremists have teamed with 
terror masterminds with the goal of virtual recruitment, 
training, and the provision of an on-line tutorial on how to 
plan an effective attack to susceptible individuals who do not 
even need to leave their home. These modern-day terrorists are 
increasingly more difficult to identify, as are their targets.
    We have prevented 30 plots targeting New York City, but we 
have also had 3 plots, including the truck attack that you 
referenced, Mr. Chairman, in your opening statement, which 
injured 12 people, killing 8; the attempted suicide bombing on 
the Times Square subway station; as well as the Chelsea 
bombing. Each one of these was inspired by a designated foreign 
terrorist organization largely through the use of internet 
propaganda.
    So to close and to sum up, as Police Commissioner O'Neill 
has said, in some areas the NYPD is very good. In other areas, 
we are the best. But in all areas, we can do better. Our 
ability to get better in the realm of counterterrorism is 
directly tied to continuing and increased levels of Federal 
funding and Federal partnerships, and the foresight of Federal 
legislators to ensure laws that are aimed at protecting our 
liberties cannot be used as a pathway to design a more 
effective attack by our enemies.
    Thank you again for this opportunity to testify today. I 
will be happy to answer questions that you may have.
    [The prepared statement of Mr. Miller follows:]
                  Prepared Statement of John J. Miller
                              May 6, 2019
    Good afternoon Chairman Rose, Ranking Member Walker, and Members of 
the subcommittee. I am John Miller, deputy commissioner of intelligence 
and counterterrorism for the New York City Police Department (NYPD). On 
behalf of Police Commissioner James P. O'Neill and Mayor Bill de 
Blasio, I am pleased to testify before your subcommittee today to 
discuss the NYPD's efforts to fight modern terrorism and the evolution 
of threats to New York City.
    Since September 11, 2001, we've seen New York City become the 
safest big city in the Nation. That tragic day forever changed how the 
NYPD views its mission and forced us to recognize that we must be 
proactive in our efforts to prevent both home-grown and international 
terror threats to our city. Soon after, the NYPD became the first 
police department in the country to develop its own significant 
counterterrorism infrastructure, operating throughout the city, 
country, and the world to gather intelligence and develop techniques to 
combat this continually evolving threat. The one thing that undergirds 
all of our counterterrorism and intelligence-gathering efforts, and 
what drives our neighborhood policing philosophy overall, is 
collaboration and collective problem-solving. Collaboration with our 
Federal, State, local, and private partners is vital to combat the 
threat of terrorism which recognizes no borders and often does not 
distinguish between public and civilian targets. In fact, this 
collaboration, which includes my fellow panel members, the Port 
Authority, Fire Department, and the Metropolitan Transit Authority, as 
well as many others, serves as the backbone of the NYPD's 
counterterrorism philosophy.
    The NYPD's Counterterrorism and Intelligence Bureau utilizes 
equipment and employs programs and initiatives which, without continued 
Federal funding, would not exist in their current forms, or even at 
all. Federal funding is critical to our efforts and it is a serious 
cause for concern when we see such Nation-wide funding decreased by 
$26.2 million from 2008 levels and hear about proposals to cut this 
funding even further. Over the last 5 years, the NYPD has received an 
average of $162 million a year in Federal funding, of which on average 
$116.4 million of that comes from Department of Homeland Security (DHS) 
grants. The NYPD relies on this funding to protect New Yorkers against 
terrorist attacks and to strengthen homeland preparedness, including 
the security of critical transportation and port infrastructure.
    We frequently work with other Government agencies to help protect 
our city. Most notably, the NYPD is a member of the Joint Terrorism 
Task Force, led by the FBI, which combines the resources of multiple 
law enforcement agencies to investigate and prevent terrorist attacks. 
Additional initiatives include Operation SENTRY, which consists of 
regular contact with law enforcement agencies from around the country 
in order to share information and training techniques, and to pursue 
joint investigative avenues. At last count, there are 275 participating 
law enforcement partners. Law enforcement in this country can no longer 
be content with merely focusing on activity in their own jurisdictions. 
Information silos can be deadly and Operation SENTRY is designed to 
break down walls between jurisdictions.
    The NYPD's Critical Response Command (CRC) is one of our first 
lines of defense against any threat. An elite squad, with officers 
trained in special weapons, long guns, explosive trace detection, and 
radiological and nuclear awareness, who respond quickly to any 
potential attack on the city, including active-shooter incidents. This 
team, which is central to the Counterterrorism Bureau's proactive 
counterterrorism mission, conducts daily deployments, saturating high-
probability targets with a uniformed presence aimed at disrupting 
terrorist planning operations and deterring and preventing attacks. But 
the Counterterrorism and Intelligence Bureau has a mandate broader than 
the CRC's operations. The Bureau has wide-ranging responsibilities that 
include designing and implementing large-scale counterterrorism 
projects; conducting counterterrorism training for the entire patrol 
force and other law enforcement agencies; identifying critical 
infrastructure sites and developing protective strategies for such 
sites; researching, testing, and developing plans for the use of 
emerging technologies used to detect and combat chemical, biological, 
radiological, nuclear, and explosive weapons; developing systems and 
programs to increase harbor security, which includes the pro-active 
deployment and mapping of background radiation in the Port of New York 
and New Jersey; and interfacing with the NYC Office of Emergency 
Management, which coordinates the city's response to mass-scale events.
    Over the years, the caliber of people we have been able to attract 
has played a major role in our ability to protect New York City. We 
have hired civilian analysts who are experts in intelligence and 
foreign affairs. They study terrorist groups, trends, and methods of 
attacks. One of our most important institutional strengths is the 
remarkable diversity in our ranks. The NYPD is fortunate to have a deep 
pool of foreign-speaking officers. This has allowed us to build a 
foreign linguist program with more than 1,200 registered speakers of 85 
different languages--Arabic, Dari, Farsi, Mandarin, Pashto, Russian, 
Spanish, and Urdu, to name just a few.
    Our personnel also includes our trained vapor wake dogs. Our vapor 
wake dogs are often deployed at large-scale events in the city. They 
are able to sense mobile threats and explosive particles, and they are 
trained to avoid the distractions of large crowds and loud noises. They 
are an invaluable component to our counterterror strategy which has 
been made possible by Federal appropriations.
    The NYPD also provides comprehensive training to our officers to 
respond to explosive, chemical, biological, and radiological incidents. 
There are many possible forms a terror attack could take, and the 
Department has to be ready for any scenario. Federal funds are vital to 
training officers to respond to active-shooter scenarios, allowing them 
to engage and end a coordinated terrorist attack like the attack in 
Mumbai. It also provides critical instruction to officers in life-
saving techniques that can be implemented before it is safe enough for 
medical personnel to enter an active crime scene.
    In addition to supporting the staffing levels of our 
counterterrorism and intelligence bureaus and training our officers, 
this funding has helped the NYPD create the security infrastructure 
that has prevented potential attacks. For instance, in an initiative 
supported by DHS, we have installed radiation detection equipment in 
neighboring jurisdictions and at key points of entry into the five 
boroughs so that the city is virtually ringed with a radiological alarm 
system. This program, called Securing the Cities, includes 150 law 
enforcement agencies in dozens of nearby cities and towns.
    Across the city, we have distributed approximately 3,000 radiation 
pagers to units throughout the Department and nearly 4,000 radiological 
dosimeters to each Patrol Borough's counterterrorism post. We continue 
to invest heavily to acquire and maintain state-of-the-art equipment to 
identify, prevent, or disrupt threats. We have installed highly-
sensitive detection equipment on the boats and helicopters we use to 
patrol New York Harbor, as well as vehicles we use to patrol our 
streets.
    Mass transit and the many entry points into New York are always 
among our highest priorities. The NYPD and our partners in the MTA 
place particular emphasis on the subway system, in light of its 
attractiveness as a target and because it is a vital artery that keeps 
this city running. In excess of 5 million New Yorkers use the subways 
every day and the strength of the system, open 24 hours a day every day 
of the year, makes it an appealing target for attackers. We perform 
random screening of bags and packages of subway passengers and we 
maintain a presence at each of the 14 underwater subway tunnels. We 
have expanded uniformed patrols underground and regularly conduct 
security sweeps in subway cars. The department also participates in 
Multi-Agency Super Surges which are joint operations to focus manpower 
at sensitive transit locations such as bridges, ferries, and tunnels, 
conducted in partnership with the Port Authority Police, Amtrak Police, 
MTA Police, New Jersey Transit Police, the FBI, TSA, and the National 
Guard SHIELD Group.
    Federal funding also helps ensure that each officer responding to a 
terror incident has the proper equipment so that they can effectively 
respond to events such as active shooters or radiological attacks. The 
support we receive from the Federal Government, whether it be in the 
form of funding and our collaborative relationships with our Federal 
law enforcement partners has been and continues to be invaluable. 
However, we continue to seek greater funding levels that are 
commensurate with the severity of the ever-present threat to our city, 
which unfortunately consistently finds itself atop the terror target 
list. With additional funding above and beyond the current levels, the 
NYPD could, among other things, further increase deployments in 
critical areas of the city, continue to expand our Domain Awareness 
System (DAS) in order to retrieve and analyze critical information and 
elevate situational awareness, as well as expand our public, private, 
and international partnerships.
    As part of our information-sharing efforts, I would like to note 
that the Department of Homeland Security Office of Intelligence and 
Analysis (I&A) certified a Sensitive Compartmented Information Facility 
(SCIF) at NYPD Headquarters which supports Classified information 
sharing integral to the NYPD mission. We also have three I&A personnel 
assigned to New York City to support NYPD in addition to a DHS Special 
Security Officer (SSO) assigned full-time to manage SCIF operations. 
The DHS Intelligence Analyst assigned to the NYPD is co-located with 
our Intelligence Division and proactively shares DHS and intelligence 
community information with us. This partnership alone has resulted in 
leads for existing investigations, new investigations being opened, and 
two recent joint finished intelligence products.
    In addition to the NYPD's public sector and international 
Government partnerships, we have increasingly teamed up with the 
private sector. These partnerships are instrumental and are always 
leveraged in a way that ensures maximum protection for both the 
public's safety and civil liberties. Our public-private initiatives, 
interconnected yet distinct, begin with our Federally-funded Domain 
Awareness System, which receives data from real-time sensors, including 
radiological and chemical sensors, ShotSpotter, information from 9-1-1 
calls, hundreds of license-plate readers, and live feeds from thousands 
of CCTV cameras around the city. Not all of these cameras are city-
owned or -operated. In fact, most of them are not. They belong to 
private entities that have chosen to partner with us in the Lower 
Manhattan Security Initiative and the Midtown Manhattan Security 
Initiative, providing encrypted access to their cameras as well as 
other information, in our collective effort to keep the city's millions 
of inhabitants safe. This information, including camera feeds, can also 
be accessed by NYPD officers on their Department-issued mobile devices 
in real time. DAS makes it possible to scan footage for specific 
objects, such as an unattended bag, a car driving against the flow of 
traffic, or suspicious behavior, such as a person walking through a 
restricted area. DAS's advanced graphical interface and mapping 
capability allows us to monitor arising threats and to guide our 
response if an attack should occur.
    Our collaborative efforts also include initiatives known as 
Operation Nexus, where the NYPD works with businesses throughout the 
Nation to provide them with information to help them identify 
suspicious transactions that may be linked to terrorist plots, and NYPD 
SHIELD, which established a 2-way line of communication and information 
sharing between the NYPD and approximately 20,000 private-sector 
members from businesses and organizations throughout the country, 
representing almost every sector of industry and Government. The 
information we share enables us to better secure our city and allows 
businesses, both individually and collectively as industries, to 
enhance their own security.
    However, in spite of our extensive efforts, violent extremists of 
all stripes, both foreign and home-grown, count New York City as their 
No. 1 target. What makes our unenviable position on this list even more 
concerning is the evolution of the terror framework in the modern day. 
Where we once saw the threats to our homeland coming in large part from 
well-funded state and non-state actors who established training camps, 
attracted recruits to these camps, trained these recruits, planned 
attacks from these centralized locations, and dispatched individuals to 
carry out these attacks, we now see the primary threat as one that is 
decentralized, carried out by so-called ``lone wolves''. Traditional 
brick-and-mortar terror infrastructures have been replaced with 
websites, chat rooms, and on-line manuals. This is the difference 
between a directed terrorist and an inspired terrorist. Gone are the 
days where groups such as ISIS and al-Qaeda provide us with the 
opportunity to locate, surveil, and infiltrate a training camp, gather 
intelligence and identify bad actors, learn of the group's methods, 
techniques, future plans, and targets. Instead, tech-savvy extremists 
have teamed with terror masterminds with the goal of virtual 
recruitment, training, and the provision of an on-line tutorial on how 
to plan an effective attack to susceptible individuals that don't even 
need to leave their home. These modern-day terrorists are increasingly 
more difficult to identify, as are their targets.
    Although the primary threats now come from ``lone wolves'', and the 
danger from centralized terror groups has recently moved to the 
margins, it has not disappeared. With the fall of the Islamic State 
caliphate in Syria and Iraq a major blow was struck to the 
international terrorist infrastructure but we do not expect the threat 
to abate any time soon. As we saw this Easter in Sri Lanka, the threat 
from these well-funded and organized terrorist groups remains very 
real. The State Department currently lists North Korea, Iran, Sudan, 
and Syria as state sponsors of terrorism, and politically influential 
groups such as Hamas in the Gaza Strip and Hezbollah in Lebanon have 
been designated Foreign Terrorist Organizations. Importantly, the State 
Department recently for the first time designated a government military 
organization as a Foreign Terrorist Organization, Iran's Islamic 
Revolutionary Guard Corps. What began as an ideologically-driven 
militia after the Iranian Revolution, has become a largely autonomous 
authoritarian military security force numbering over 100,000 which has 
inserted itself into virtually every aspect of Iranian society and the 
Middle East generally, suppressing dissent domestically, and arming, 
training, and funding fighters in Yemen, Syria, Iraq, and elsewhere.
    Whether the ever-looming specter of an attack against our city 
stems from an individual or group that is inspired or directed, we will 
continue to work in collaboration with our Federal, State, local, and 
private-sector partners to continuously improve our investigative and 
emergency response infrastructure, while protecting and upholding the 
freedoms and liberties afforded to those who live, work, and visit New 
York City. In the almost 18 years after the worst attack our country 
has ever experienced, the NYPD and our partners have uncovered 
approximately 30 terrorist plots against our city. In most cases, they 
have been thwarted by the efforts of the NYPD and the FBI-NYPD Joint 
Terrorism Task Force.
    Tragically, we could not stop all of them. In September 2016, a man 
inspired by al-Qaeda set off home-made pressure cooker bombs in the 
Chelsea neighborhood of Manhattan and in Seaside Park, New Jersey, 
injuring 30 people, and 7 additional unexploded devices were 
subsequently discovered. This case highlights that although our 
proactive efforts could not prevent this attack, our reactive 
preparedness resulted in the immediate activation of partnerships and 
plans that not only quickly located the perpetrator, but also other 
devices before more damage could be done. Collaboration between the 
FBI, ATF, our New Jersey partners, and the NYPD, among others, led to 
this individual's speedy capture and he is currently serving multiple 
life sentences.
    In November 2017, an ISIS-inspired extremist used a rented truck to 
mow down innocent cyclists and pedestrians on the West Side Highway 
running path near Ground Zero in Manhattan, killing 8. Collaboration 
between the NYPD and the FBI led to Federal charges of lending support 
to a terrorist organization, in addition to murder charges, on which he 
will be tried later this year.
    More recently, in December 2017, an ISIS-inspired extremist 
attempted a suicide bombing when he set off a homemade explosive device 
at the Port Authority Bus Terminal subway station in Manhattan, 
injuring 3 people and himself. Once again, collaboration between the 
NYPD and our State and Federal partners resulted in a successful 
investigation and a guilty verdict on terrorism charges. These attacks, 
while tragic, serve to strengthen our resolve to protect New Yorkers 
from terrorist violence in all forms and from all quarters.
    The future of a comprehensive counterterrorism strategy must 
necessarily seek to adapt to emerging tactics we see nationally and 
internationally, which if successful can inevitably be used against 
this city. We must be vigilant and constantly strive to anticipate and 
protect against threats before they materialize into deadly acts.
    To this end, since September 11 the NYPD's reach has extended 
overseas. Through our International Liaison Program, detectives are 
embedded with law enforcement agencies in 13 foreign countries, 
including France, Spain, Jordan, the United Arab Emirates, Qatar, 
Singapore, and Israel. This program has been vital in establishing and 
maintaining contacts and information sharing with local law enforcement 
and intelligence agencies, as well as INTERPOL, and has proven to be 
effective not only in counterterrorism efforts, but in solving crimes 
where a perpetrator has fled New York to escape justice. The NYPD has 
been given unprecedented access to the scenes of terror attacks and 
intelligence by our foreign partners, enabling us to immediately make 
threat assessments and adapt our security posture in the city.
    Right now, one of the most prominent and thankfully unrealized 
threats comes in the form of unmanned aircraft systems, or drones. 
Though bad actors have yet to deploy drones for terroristic purposes in 
the United States, terror groups such as ISIS and al-Qaeda have 
incorporated drones in battle overseas to devastating effect. And, as 
we saw last December in London where illegal drone flights brought an 
entire airport to a standstill for 17 hours, when we are unable to 
disable or disrupt a drone posing a threat, we are at its mercy. This 
is where we need your help.
    Currently, Federal law prohibits anyone except the Department of 
Homeland Security and the Department of Justice from using technology 
that could be used to jam a drone's signal, and there exists no pathway 
for State or local governments to apply to the FCC for an exception 
from this prohibition. The NYPD recommends amending the Federal Code to 
allow State and local governments to use jamming technology against 
unmanned aircraft systems in select circumstances. We would ensure 
those members of the service would be properly-trained and would 
establish meaningful oversight protocols. Despite the best efforts of 
our DHS and DOJ partners, which we do not question, they simply do not 
have the resources to ensure the level of geographic coverage New York 
City requires against this threat. The difficulty that DHS and DOJ will 
have responding to threats in New York City is magnified in places 
where they do not have permanent field offices. The NYPD is ready, 
willing and able to deploy this option if given the authority. Select 
trained members of the NYPD could be ready to respond swiftly anywhere 
in the five boroughs. Even a short delay could mean the difference 
between successfully stopping such an attack and catastrophe.
    Last, given the low cost and minimal expertise needed to carry out 
vehicle or truck attacks like we've seen in Nice, France and 
Manhattan's West Side Highway, we expect this tactic to remain popular 
among people looking to do us harm. However, with the advent and 
inevitable proliferation of driverless vehicles we must not find 
ourselves playing catch-up as we are currently doing with drones. 
Lawmakers must preemptively, before these vehicles become as wide-
spread as drones are now, require that these vehicles incorporate a 
mechanism to allow law enforcement to interdict or otherwise disrupt a 
driverless vehicle suspected of being used as a weapon.
    Almost 18 years after 9/11, New York City enjoys the distinction of 
being the safest big city in America. However, complacency serves as a 
welcome mat for tragedy. The state-of-the-art technology I have 
outlined requires on-going modernization to be effective, as is the 
nature with all technology. The partnerships I have lauded cannot 
remain static, we must expand our public, private, and international 
networks so that we can tap into and learn from ever-evolving and 
diverse intelligence, methods, approaches, and strategies. The 
equipment we employ must be upgraded in order for it to have maximum 
value in protecting the public and our officers. The training we 
administer must be updated to ensure our tactics keep up with the 
evolving threat against our city. Finally, relevant laws must 
continuously be reviewed and amended to guarantee the legal framework 
designed to protect our freedoms is not used to compromise our safety.
    As Commissioner O'Neill has said, in some areas the NYPD is very 
good, in other areas, we are the best, but in all areas we can do 
better. Our ability to get better in the realm of counterterrorism is 
directly tied to a continuing and increased level of Federal funding, 
Federal partnerships and the foresight of Federal legislators to ensure 
laws aimed at protecting our liberties cannot be used as a pathway to 
design a more effective attack by our enemies.
    Thank you again for this opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Currao to summarize his statement for 5 
minutes.
    Thank you again for being here.

  STATEMENT OF THOMAS CURRAO, CHIEF OF COUNTERTERRORISM, FIRE 
               DEPARTMENT OF THE CITY OF NEW YORK

    Mr. Currao. Good afternoon, Chairman Rose, Ranking Member 
Walker, and Members of the Subcommittee on Intelligence and 
Counterterrorism. My name is Tom Currao, and I am the chief of 
Counterterrorism and Emergency Preparedness for the New York 
City Fire Department. Thank you for the opportunity to discuss 
the importance of the FDNY's continuing preparedness efforts in 
a dynamic threat environment.
    The primary mission of the New York City Fire Department is 
to protect life and property. We execute this mission through 
firefighting, search and rescue, pre-hospital patient care, and 
hazardous materials mitigation. However, as a professional fire 
service agency, our protection of life and property, 
particularly after September 11, is increasingly in the 
homeland security realm via threat and risk analysis, 
developing and sharing intelligence at all levels of 
classification, as well as working within the first responder 
community to mitigate and recover from the effects of natural 
disasters.
    In a post-9/11 environment, we operate in a constant state 
of evolution, seeking the latest innovations to keep up with 
emerging threats. We maximize our cooperation and coordination 
with Federal, State, and local agencies, working together to 
prepare for, respond to, and mitigate the effects of security 
and disaster threats. All of this is made possible by the 
Federal Homeland Security funding that we receive.
    Following the recommendations of the 9/11 Commission 
Report, the Fire Department has used Federal funding to invest 
in several core areas. We expanded the Department's incident 
management capabilities by building a state-of-the-art 
Emergency Operations Center at FDNY headquarters to manage 
complex emergencies. We developed a 300-member Incident 
Management Team to manage and coordinate emergencies. This team 
has activated for a variety of emergencies, including at 
explosion incidents, during extreme weather such as Super Storm 
Sandy, and at major fires. The IMT operates as a regional and 
National resource, serving the people of the New York and New 
Jersey metropolitan area as well as our fellow citizens around 
the country and the world when deployed in the wake of 
hurricanes and severe storms.
    The Department created the FDNY Center for Terrorism and 
Disaster Preparedness to develop emergency response plans and 
create drills and exercises. We built advanced training 
facilities at the Fire Academy, including a Subway Simulator, a 
Shipboard Firefighting Simulator, and a marine-based Damage 
Control Simulator. We have also developed specialized units and 
preparedness capabilities within our Special Operations Command 
such as HazMat, HazTac Ambulances, and Technical 
Decontamination Engines. The Department built advanced 
technical rescue capabilities across Rescue Operations and the 
FDNY's Special Operations Command. Members are trained to 
respond in various tech rescue environments for search and 
rescue and patient extrication, including building collapses, 
incidents in the New York City subway system, and high-angle 
rescues. We also created tactical water rescue teams to rescue 
people impacted by floods and hurricanes.
    Following the Paris attacks of 2015, the Commissioner 
tasked Department leadership with designing a response 
mechanism that would be ready for quick deployment to such 
incidents. Using Federal funding, the Department created the 
Counterterrorism Rescue Task Force, in which specially-trained 
EMS personnel operate in conjunction with NYPD force protection 
in warm zones during active-shooter events to triage and 
provide life-saving care, such as bleeding control, in those 
moments where every second counts.
    We have also enhanced our urban search-and-rescue teams and 
Special Operations Command Task Force, and we have built a 
formidable marine fleet to patrol and protect New York Harbor. 
Marine assets include a tiered system of response boats, 
ranging from 140-foot boats for large-scale disasters, mid-
sized boats with more maneuverability, to smaller medical 
response boats. These are also a regional asset, responding 
primarily within the Port of New York and New Jersey but with 
the ability to respond to emergencies throughout the Northeast.
    The FDNY cannot operate at our highest capacity without 
working hand-in-glove with our partners at the NYPD, New York 
City Emergency Management, the Port Authority of New York New 
Jersey, the Metropolitan Transit Authority, the United States 
Coast Guard, the New York State Division of Homeland Security 
and Emergency Services, the Federal Bureau of Investigation, 
the Joint Terrorism Task Force, and many departments and first-
responder agencies here in New York and across the country.
    Only a short while after its formation, the Rescue Task 
Force was deployed in response to the 2016 Chelsea bombing. In 
June 2017, when a disgruntled doctor killed 1 person and 
wounded 6 others at Bronx Lebanon Hospital, the Rescue Task 
Force entered the hospital to treat seriously wounded patients 
even as the gunman was still being sought. It was also deployed 
in response to a pipe bomb that was detonated during a morning 
rush hour at the Port Authority. Each deployment involves FDNY 
and NYPD members working in concert, operating as a single 
unit.
    The cooperation exhibited by the agencies during live 
emergencies does not just happen on its own. Rather, it is the 
product of intense training and preparation so when a call 
comes in, the teams work together seamlessly. The Center for 
Terrorism and Disaster Preparedness, FDNY's in-house planning 
and preparedness group, works with local and regional partners 
to develop emergency response plans and carry out joint 
exercises and drills. On average, the Center for Terrorism and 
Disaster Preparedness runs 40 preparedness exercises a year. 
Recent examples include active-shooter drills with the NYPD, 
Ebola pathogen drills with New York City and Long Island area 
hospitals, and a cybersecurity drill with West Point Cadets. We 
also conduct joint trainings with the Metropolitan Transit 
Authority, including a recent full-scale shooter exercise in 
the Park Avenue Tunnel.
    The Counterterrorism Task Force works extensively with NYPD 
counterparts, including an annual 3-day training involving 
communications and movement of Rescue Task Force members, 
medical care and patient movement in the warm zone, self and 
buddy aide for injured members, improvised explosive device 
awareness, and drills around a variety of scenarios such as a 
classroom shooter with a secondary device. In 2018, we had 120 
days of joint training. In 2019, approximately 100 Fire and EMS 
members and 60 NYPD members will receive the training each 
week. Last year, the FDNY/NYPD Rescue Task Force deployed for 
pre-staged events 69 times, including a 2-hour joint training 
session at each deployment. FDNY also conducts large-scale 
joint agency trainings, such as a 3-day New York State homeland 
security training in Oriskany, New York. The FDNY also has a 
liaison to the Joint Terrorism Task Force.
    Cooperation and communication between the Fire Department 
and the Police Department is as strong as it has ever been. 
This extends beyond response to planning and developing 
interagency standard operating procedures. In fact, there is a 
draft procedure that was recently developed by both of our 
agencies to address fire and smoke as a weapon in the high-rise 
environment. In addition, we regularly share intelligence 
analysis with the NYPD Intelligence and Counterterrorism 
Divisions.
    In 2004, the Department created the FDNY Center for 
Terrorism and Disaster Preparedness. Serving as the focal point 
of the Department's strategic preparedness, the Center creates 
dynamic and practical approaches to counterterrorism, disaster 
response, and consequence management. Core competencies of the 
Center include: Intelligence sharing; weapons of mass 
destruction and security preparedness; designing drills and 
exercises; and emergency response planning, education, and 
technology.
    We want to briefly share with the committee some of the 
emerging threats that we have been focusing on at the Center. 
One trend that we are tracking that appears to be on the rise 
is violence perpetrated by domestic extremists. This includes 
violence carried out by domestic individuals motivated by 
political, social, environmental, and religious movements. In 
the United States, and indeed on a global basis, this includes 
the white supremacist movement and its various subgroupings, 
anti-Government extremist movements, and single-issue movements 
including anti-abortion, anti-immigrant, and anti-Muslim 
extremists, among others. These attacks often involve firearms 
and improvised explosive devices. These weapons may be easy to 
obtain and construct using common materials and supported by 
digital instructional resources. Recent examples of attacks of 
this nature include the Pittsburgh synagogue shooting and an 
individual who sent pipe bombs to prominent political and media 
figures.
    Another threat that we have been studying closely for years 
is the concept of complex coordinated attacks. These are 
attacks that are characterized by multiple teams of attackers, 
multiple attack locations, and perhaps multiple types of 
weapons. Examples include attacks in Mumbai, Paris, Brussels, 
and the Easter Sunday attacks in Sri Lanka. Their complex and 
dynamic nature present operating challenges for first 
responders. An attack involving multiple forms of violence at 
disperse locations elevates the importance of communication and 
coordination among responders. Responses may require 
simultaneous action and sustained operations over a long period 
of time involving personnel from a wider response area than in 
a single isolated response, as well as a deliberate method of 
communicating with and providing warnings to the public. The 
Fire Department's Incident Management Team and operators train 
frequently with other first-responder agencies and 
jurisdictions to be prepared for just such an event. One 
specific example will take place on June 4 when the Fire 
Department will be taking part in an exercise with the U.S. 
Coast Guard responding to a hypothetical situation of active 
shooters on multiple ferries in different areas of the city's 
waterways.
    We also devote resources to planning and preparation around 
the threat of vertical terrorism, which is a terrorist incident 
in a high-rise building using automatic weapons, explosives, 
and potentially fire as a weapon. The most striking example of 
this is the 2008 Mumbai terror attacks. This is a particularly 
complex problem and involves coordinated planning and 
development of interagency standard operating procedures to 
support further research, training, and exercises. Attacks of 
this nature present challenges both in reaching the perpetrator 
as well as reaching, caring for, and transporting patients. In 
many ways, the success of the law enforcement and fire service 
missions are intertwined and codependent.
    The Fire Department relies on Federal funding to make smart 
investments in terrorism and disaster preparedness. The grant 
funds that we obtain has allowed us to create and maintain the 
capabilities that I have described to you here today and has 
enabled the Department to continue looking forward, proactively 
planning for the next wave of threats. In addition to the large 
equipment, we use Federal resources for critical equipment such 
as personal protective equipment. This gear is critical to the 
safety of our members when responding to and mitigating 
potential chemical, biological, and radiological weapons, such 
as when the Ebola patient that was discovered in Hamilton 
Heights was exhibiting signs of Ebola. FDNY Haz-Tac paramedics 
donned their TyChem-F suits and their Powered Air Purifying 
Respirators and relied on their training to successfully 
respond to, transport, and hand off the patient to an isolation 
section within Bellevue Hospital.
    Proposed cuts under the current administration would 
significantly erode the progress that we have made in the years 
since 9/11. Cuts to our funding would result in the Center for 
Terrorism and Disaster Preparedness or the Fire Department 
Operations Center not having the resources available to 
adequately run. These cuts would severely impact the operation 
of our Incident Management Team, our Rescue Task Force, and 
other specialized teams.
    It has been an honor today for the Fire Department to 
appear before you. We appreciate your support and we look 
forward to a continued partnership with Members of this 
committee and the Congress so that we are able to sustain 
existing capabilities and continue to adapt to new threats in 
order to protect the people of the New York City urban area.
    I would be happy to take your questions at this time.
    [The prepared statement of Mr. Currao follows:]
                  Prepared Statement of Thomas Currao
                              May 6, 2019
    Good afternoon Chairman Rose, Ranking Member Walker, and Members of 
the Subcommittee on Intelligence and Counterterrorism. My name is Tom 
Currao and I am the chief of counterterrorism and emergency 
preparedness for the New York City Fire Department (FDNY). Thank you 
for the opportunity to discuss the importance of the FDNY's continuing 
preparedness efforts in a dynamic threat environment.
    The primary mission of the New York City Fire Department is to 
protect life and property. We execute this mission through 
firefighting, search and rescue, pre-hospital patient care, and 
hazardous material mitigation. However, as a professional fire service 
agency, our protection of life and property, particularly after 
September 11, is increasingly in the homeland security realm via threat 
and risk analysis, developing and sharing intelligence at all levels of 
classification, as well as working within the first responder community 
to mitigate and recover from the effects of natural disasters.
    In a post-9/11 environment, we operate in a constant state of 
evolution, seeking the latest innovations to keep up with emerging 
threats. We maximize our cooperation and coordination with Federal, 
State, and local agencies, working together to prepare for, respond to, 
and mitigate the effects of security and disaster threats. All of this 
is made possible by the Federal Homeland Security funding that we 
receive.
                         post-9/11 innovations
    Following the recommendations of the 9/11 Commission Report, the 
Fire Department has used Federal funding to invest in several core 
areas. We expanded the Department's incident management capabilities by 
building a state-of-the-art Emergency Operations Center at FDNY 
headquarters to manage complex emergencies. We developed a 300-member 
Incident Management Team (IMT) to manage and coordinate emergencies. 
This team has activated for a variety of emergencies, including at 
explosion incidents, during extreme weather such as Superstorm Sandy, 
and at major fires. The IMT operates as a regional and National 
resource, serving the people of the New York-New Jersey metropolitan 
area as well as our fellow citizens around the country and the world 
when deployed in the wake of hurricanes and severe storms.
    The department created the FDNY Center for Terrorism and Disaster 
Preparedness (CTDP) to develop emergency response plans and create 
drills and exercises. We built advanced training facilities at the Fire 
Academy, including a Subway Simulator, a Shipboard Firefighting 
Simulator, and a marine-based Damage Control Simulator. We've also 
developed specialized units and preparedness capabilities within our 
Special Operations Command such as HazMat, HazTac Ambulances, and 
Technical Decontamination Engines. The department built advanced 
Technical Rescue capabilities across Rescue Operations and the FDNY's 
Special Operations Command. Members are trained to respond in various 
tech Rescue environments (for Search and Rescue and Patient 
Extrication), including: Building collapses, incidents in the NYC 
Subway, and high-angle rescues. We also created tactical water rescue 
teams to rescue people impacted by floods and hurricanes.
    Following the Paris attacks of 2015, the Commissioner tasked 
department leadership with designing a response mechanism that would be 
ready for quick deployment to such incidents. Using Federal funding, 
the department created the Counterterrorism Rescue Task Force, in which 
specially-trained EMS personnel operate in conjunction with NYPD force 
protection in ``warm zones'' during active-shooter events to triage and 
provide life-saving care, such as bleeding control; in those moments, 
every second counts.
    We have also enhanced our Urban Search and Rescue teams and Special 
Operations Command Task Force, and we've built a formidable marine 
fleet to patrol and protect New York Harbor. Marine assets include a 
tiered system of response boats, ranging from 140-foot boats for large-
scale disasters, mid-sized boats with more maneuverability, to smaller 
medical response boats. These are also a regional asset, responding 
primarily within the Port of New York and New Jersey but with the 
ability to respond to emergencies throughout the Northeast.
                      cooperation and coordination
    The FDNY cannot operate at our highest capacity without working 
hand-in-glove with our partners at the NYPD, New York City Emergency 
Management (NYCEM), the Port Authority of New York New Jersey (PANYNJ), 
the Metropolitan Transit Authority (MTA), the United States Coast Guard 
(USCG), the New York State Division of Homeland Security and Emergency 
Services, Federal Bureau of Investigation (FBI), the Joint Terrorism 
Task Force (JTTF), and many departments and first responder agencies 
here in New York and across the country.
    Only a short while after its formation, the Rescue Task Force was 
deployed in response to the 2016 Chelsea Bombing. In June 2017, when a 
disgruntled doctor killed 1 person and wounded 6 others at Bronx 
Lebanon Hospital, the Rescue Task Force entered the hospital to treat 
seriously wounded patients even as the gunman was still being sought. 
It was also deployed in response to a pipe bomb that was detonated 
during a morning rush hour at the Port Authority. Each deployment 
involves FDNY and NYPD members working in concert, operating as a 
single unit.
    The cooperation exhibited by the agencies during live emergencies 
does not just happen on its own; rather, it is the product of intense 
training and preparation so that the when a call comes in, the teams 
work together seamlessly. The Center for Terrorism and Disaster 
Preparedness (CTDP)--FDNY's in-house planning and preparedness group--
works with local and regional partners to develop emergency response 
plans and carry out joint exercises and drills. On average, CTDP runs 
40 preparedness exercises a year. Recent examples include active-
shooter drills with the NYPD, Ebola pathogen drills with New York City 
and Long Island area hospitals, and a cybersecurity drill with West 
Point Cadets. We also conduct joint trainings with the Metropolitan 
Transit Authority, including a recent full-scale shooter exercise in 
the Park Avenue Tunnel.
    The Counterterrorism Task Force works extensively with NYPD 
counterparts, including an annual 3-day training involving 
communications and movement of Rescue Task Force members, medical care 
and patient movement in the warm zone, self and buddy aide for injured 
members, improvised explosive device awareness, and drills around a 
variety of scenarios such as a classroom shooter with a secondary 
device. In 2018, we had 120 days of joint training. In 2019, 
approximately 100 Fire/EMS members and 60 NYPD members will receive the 
training each week. Last year, FDNY/NYPD Rescue Task Force deployed for 
pre-staged events 69 times, including a 2-hour joint training session 
at each deployment. FDNY also conducts large-scale joint agency 
trainings, such as a 3-day New York State homeland security training in 
Oriskany, NY. The FDNY also has a liaison to the Joint Terrorism Task 
Force.
    Cooperation and communication between the fire department and the 
police department is as strong as it has ever been. This extends beyond 
response to planning and developing interagency standard operating 
procedures. In fact, there is a draft procedure that was recently 
developed by both of our agencies to address fire and smoke as a weapon 
in the high-rise environment. In addition, we regularly share 
intelligence analysis with the NYPD Intelligence and Counterterrorism 
Divisions.
                            emerging threats
    In 2004, the department created the FDNY Center for Terrorism and 
Disaster Preparedness. Serving as the focal point of the department's 
strategic preparedness, the CTDP creates dynamic and practical 
approaches to counterterrorism, disaster response, and consequence 
management. Core competencies of the Center include: Intelligence 
sharing; Weapons of Mass Destruction and security preparedness; 
Designing drills and exercises; and Emergency Response Planning, 
Education, and Technology.
    We want to briefly share with the committee some of the emerging 
threats that we've been focusing on at the Center. One trend that we're 
tracking that appears to be on the rise is violence perpetrated by 
domestic extremists. This includes violence carried out by domestic 
individuals motived by political, social, environmental, and religious 
movements. In the United States, and indeed on a global basis, this 
includes the white supremacist movement and its various subgroupings, 
anti-government extremist movements, and single-issue movements 
including anti-abortion, anti-immigrant, and anti-Muslim extremists, 
among others. These attacks often involve firearms and improvised 
explosive devices. These weapons may be easy to obtain and construct 
using common materials and supported by digital instructional 
resources. Recent examples of attacks of this nature include the 
Pittsburgh synagogue shooting and an individual who sent pipe bombs to 
prominent political and media figures.
    Another threat that we have been studying closely for years is the 
concept of complex-coordinated attacks. These are attacks that are 
characterized by multiple teams of attackers, multiple attack 
locations, and perhaps multiple types of weapons. Examples include 
attacks in Mumbai, Paris, Brussels, and the Easter Sunday attacks in 
Sri Lanka. Their complex and dynamic nature present operating 
challenges for first responders. An attack involving multiple forms of 
violence at disperse locations elevates the importance of communication 
and coordination among responders. Responses may require simultaneous 
action and sustained operations over a long period of time involving 
personnel from a wider response area than in a single isolated 
response, as well as a deliberate method of communicating with and 
providing warnings to the public. The Fire Department's Incident 
Management Team and operators train frequently with other first 
responder agencies and jurisdictions to be prepared for such an event. 
One specific example will take place on June 4 when the Fire Department 
will be taking part in an exercise with the U.S. Coast Guard responding 
to a hypothetical scenario of active shooters on multiple ferries in 
different areas of the city's waterways.
    We also devote resources to planning and preparation around the 
threat of vertical terrorism, which is a terrorist incident in a high-
rise building using automatic weapons, explosives, and potentially fire 
as a weapon. The most striking example of this is the 2008 Mumbai 
terror attacks. This is a particularly complex problem and involves 
coordinated planning and development of interagency standard operating 
procedures, to support further research, training, and exercises. 
Attacks of this nature present challenges both in reaching the 
perpetrator as well as reaching, caring for, and transporting patients. 
In many ways, the success of the law enforcement and fire service 
missions are intertwined and codependent. To prepare for this type of 
attack, the FDNY has conducted drills tailored to this scenario, 
including hosting a Vertical Terrorism Preparedness Workshop at 1 World 
Trade Center with our partners at NYPD, NYCEM, PANYNJ, the FBI, DHS, 
FEMA, and others.
                     importance of federal funding
    The Fire Department relies on Federal funding to make smart 
investments in terrorism and disaster preparedness. The grants funds 
that we obtain has allowed us to create and maintain the capabilities 
that I've described here today and has enabled the Department to 
continue looking forward, proactively planning for the next wave of 
threats. In addition to the large equipment, we use Federal resources 
for critical equipment such as Personal Protective Equipment for our 
first responders. This gear is critical to the safety of our members 
when responding to and mitigate potential chemical, biological, and 
radiological weapons. When we received a call in 2014 that a patient in 
Hamilton Heights was exhibiting signs that he very likely had Ebola, 
FDNY Haz-Tac paramedics donned their TyChem-F suits and their Powered 
Air Purifying Respirators and relied on their training to successfully 
respond to, transport, and hand off the patient to an isolated section 
at Bellevue Hospital Center.
    Proposed cuts under the current administration would significantly 
erode the progress that we have made in the years since 9/11. Cuts to 
our funding would result in the Center for Terrorism and Disaster 
Preparedness or the Fire Department Operations Center not having the 
resources available to adequately run. These cuts would severely impact 
the operation of our Incident Management Team, our Rescue Task Force, 
and other specialized teams.
                 first responder use of t-band spectrum
    Finally, I would like to address T-Band spectrum, which is a 
portion of spectrum that is used for public safety communications in 11 
heavily-populated metropolitan areas. Currently, the Federal 
Communications Commissioner is required to reallocate and auction the 
T-Band spectrum by 2021. Since September 11, the FDNY has 
systematically improved radio communications for our firefighters and 
EMS personnel responding to fires and medical emergencies because those 
transmissions can so often mean the difference between life and death. 
Losing the T-Band spectrum would require billions of dollars to replace 
existing radios and infrastructure, devastate FDNY's operations at 
thousands of emergencies each day, and unnecessarily endanger the 
safety of New Yorkers. We appreciate the bi-partisan Congressional 
effort to preserve the T-Band spectrum before it is reallocated for 
good.
    It is an honor for the Fire Department to appear before you today. 
We appreciate your support and we look forward to a continued 
partnership with Members of this committee and the Congress so that we 
are able to sustain existing capabilities and continue to adapt to new 
threats in order to protect the people of the New York City Urban Area.
    I would be happy to take your questions at this time.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Klock to summarize his statement for 5 
minutes.

 STATEMENT OF LOUIS P. KLOCK, DEPUTY SUPERINTENDENT OF POLICE, 
           PORT AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Klock. Good afternoon, ladies and gentlemen. On behalf 
of Chief Security Officer John Bilich and the Superintendent of 
Police Ed Cetnar, I want to thank you for allowing the Port 
Authority to represent here.
    I am humbled to be sitting next to two fine gentlemen here 
who have personified the mission that we go through day in and 
day out.
    I would like to just ping off a couple of quick words 
before I go through my statement, such words as teamwork, 
training, preparedness. Those words truly define the 
relationship that we have here, not just in training but 
exercise preparedness but when the bell rings, like what 
happened on December 11, 2017 when, just at the doorsteps of 
our bus terminal, both gentlemen explained how someone came in 
and detonated themselves. At that moment there, it personified 
teamwork in a way that, frankly, I have not seen in years. 
Regardless of what uniform you wore, what rank you were, 
everyone just jumped in and did what they had to do. Briefings 
occurred, intelligence was shared, and at the end of the day it 
was a proud day for New York City, the way everybody responded.
    I just would like to let you know that what we have here is 
truly a winning team and something that we are all, frankly, 
very proud of what we have here, but we cannot do it alone. We 
thank you for what you are doing here because, frankly, from 
where I sit, it energizes me and I cannot wait to go back to 
the Port Authority to let everyone know about the support that 
we have from all of you. So thank you very much.
    I will jump into my remarks. You can tell I am a first-
timer because I typed it in size 12 font, and I look over at 
Mr. Miller and he had like a 20 font, so you can tell he has 
done this 100 times.
    Mr. Rose. They have had the opportunity to testify as many 
times as Mr. Miller has.
    Mr. Klock. I will live and learn. Thank you.
    I will take a few minutes just to talk about our mission 
and how we operate within our various facilities.
    Since our inception in 1928, the Port Authority Police 
Department has emerged as the Nation's largest transportation 
police department, with over 2,200 members. The Port 
Authority's unique operational landscape of airports, seaports, 
trains, bridges, tunnels, and real estate include some of the 
busiest and most iconic structures in the world. The Port 
Authority Police Department is divided into four divisions: Air 
Transportation, Ground Transportation, Counterterrorism and 
Investigations. I would just like to take a moment to break 
down each one of those different branches.
    The Air Transportation Branch includes Newark Liberty 
International Airport, LaGuardia Airport, Teterboro Airport, 
and John F. Kennedy International Airport. In 2018, over 138 
million passengers traveled through Port Authority airports, 
which was a 4.5 percent increase over 2017 travel. The Port 
Authority Police Department has significantly increased its 
presence in recent years, adding additional posts and 
implementing cutting-edge counterterrorism technology. The 
department continually invests in security enhancements, adding 
drone equipment that helps detect drones that venture into our 
air space, automated license plate readers, and the newest 
radiological detection through a partnership with Defense 
Advanced Research Projects Agency, known as DARPA. 
Additionally, the Port Authority Police provide aircraft rescue 
firefighting services at all 4 airports.
    Our next branch is the Ground Transportation Branch, 
encompassing the George Washington Bridge, Lincoln Tunnel, 
Holland Tunnel, Goethals Bridge, Outer Bridge, Bayonne Bridge, 
PATH system, Port Authority Bus Terminal, World Trade Center, 
and the New Jersey Marine Terminals. Port Authority bridges and 
tunnels serve as the interstate gateway between New York and 
New Jersey. Over 100 million vehicles travel across the George 
Washington Bridge each year, making it the busiest bridge in 
the world. Port Authority Police continue to keep the region 
moving by conducting high-visibility patrols, accident 
mitigation, and traffic enforcement.
    The PATH system, which is our train system, provides rail 
service on 44.8 miles of track between New York and New Jersey, 
with an average ridership of approximately 280,860 passengers 
per day who pass through our 13 stations. The PATH system was 
the first commuter rail line to fully implement positive train 
control in the United States. Port Authority Police at PATH 
have a robust daily deployment consisting of heavy weapon 
patrols, counterterrorism initiatives, plainclothes operations, 
and radiological detection.
    The Port Authority Bus Terminal is the largest bus 
transportation facility in the United States and the busiest by 
volume in the entire world. The bus terminal serves as the 
major hub for buses in midtown Manhattan and services commuter 
lines as well as interstate bus operations. In 2017, the Port 
Authority Police, along with our partners here at the table, 
valiantly apprehended Akayed Ullah, who detonated an improvised 
explosive device in an underground corridor leading to the bus 
terminal.
    Last, the New Jersey Marine Terminals, consisting of our 
Port Elizabeth, Port Newark, and Port Jersey branches, comprise 
the busiest container terminal on the East Coast and the third-
largest in the country. In 2018, the port moved over 38 million 
metric tons of cargo, which has consistently grown over the 
last 10 years. The Port Authority CVI, which is our commercial 
vehicle inspection unit, specializes in commercial vehicle 
safety inspections and helps ensure the safe transportation of 
cargo and hazardous materials through the port and through 
other facilities. Police patrols are highly trained in anti-
terror, radiological detection, and heavy weapons.
    The Port Authority Police have the distinct responsibility 
to protect the approximately 15 acres of the World Trade Center 
campus, where over 3,000 people lost their lives in the 
terrorist attacks of 9/11. The Port Authority Police suffered 
the largest 1-day loss of law enforcement when 37 police 
officers were killed on 9/11 during the attempted rescue of 
thousands of people from the World Trade Center site. Today, 
the campus is home to a variety of Government and corporate 
entities and is one of the most visited locations in Manhattan. 
The World Trade Center campus contains the National 9/11 
Memorial. The Port Authority Police aggressively patrol the 
campus, utilizing state-of-the-art counterterrorism patrol 
tactics and equipment.
    The department has made significant investments in 
counterterrorism investigations as we look to emerge with 
greater Emergency Services Unit, our K-9 Unit, CVI Unit, and 
the Counterterrorism Unit. These units work closely with our 
partners sitting here today, as well as other local, State, and 
Federal mutual aid partners to enhance advanced response and 
mitigation capabilities. Furthermore, members of the Port 
Authority Criminal Investigations Bureau are embedded in 
Federal and State task forces, including the Joint Terrorism 
Task Force in both New York and New Jersey, as well as the DEA 
Task Force in both New York and New Jersey. This collaboration 
provides critical intelligence and helps drive our mission. Our 
Department has one of the largest K-9 deployments in the 
country, with 24-hour coverage at all of our facilities. 
Additionally, our K-9 assets are attached to Federal task 
forces and are often requested by our mutual aid partners for 
patrol-related assistance.
    In closing, the evolution of the Port Authority Police 
Department over the last year has led to the Department being 
on the forefront of counterterrorism policing. Investments in 
staffing, training, equipment, and technology are just part of 
the Department's aspiration to become the greatest 
counterterrorism police department in the country. For over 91 
years, the Port Authority Police Department has proudly served 
the region with pride, service, and distinction, and will 
continue that tradition.
    I thank you for allowing me to represent the fine ladies 
and gentlemen of the Port Authority Police Department. I will 
now take any questions of you if you have any at this time. 
Thank you very much.
    [The prepared statement of Mr. Klock follows:]
                  Prepared Statement of Louis P. Klock
                              May 6, 2019
    Since its inception in 1928, the Port Authority Police Department 
has emerged as the Nation's largest transportation police department, 
with over 2,200 members. The Port Authority's unique operational 
landscape of airports, seaports, trains, bridges, tunnels, and real 
estate include some of the busiest and most iconic structures in the 
world. The Port Authority Police Department is divided into the 
following divisions: Air Transportation, Ground Transportation, 
Counterterrorism/Investigations.
    The Air Transportation Branch includes Newark Liberty International 
Airport, LaGuardia Airport, Teterboro Airport, and John F. Kennedy 
International Airport. In 2018, over 138 million passengers traveled 
through Port Authority Airports, which was a 4.5 percent increase over 
2017 travel. The Port Authority Police Department has significantly 
increased its presence in recent years, adding additional posts and 
implementing cutting-edge counterterrorism technology. The department 
continually invests in security enhancements, adding drone detection 
equipment, automated license plate readers, and the newest in 
radiological detection through a partnership with Defense Advanced 
Research Projects Agency (DARPA). Additionally, the Port Authority 
Police provide Aircraft Rescue Fire Fighting services at all 4 
airports.
    The Ground Transportation Branch encompasses the George Washington 
Bridge, Lincoln Tunnel, Holland Tunnel, Goethals Bridge, Outer Bridge, 
Bayonne Bridge, PATH, Port Authority Bus Terminal, World Trade Center, 
and the New Jersey Marine Terminals. Port Authority bridges and tunnels 
serve as the interstate gateway between New York and New Jersey. Over 
100 million vehicles travel across the George Washington Bridge each 
year making it the busiest bridge in the world. Port Authority Police 
continue to keep the region moving by conducting high-visibility 
patrols, accident mitigation, and traffic enforcement.
    The PATH system provides rail service on 44.8 miles of track 
between New York and New Jersey, with an average of 280,860 passengers 
each day passing through 13 stations. The PATH system was the first 
commuter rail line to fully implement positive train control in the 
United States. Port Authority Police at PATH have a robust daily 
deployment consisting of heavy weapon patrols, counterterrorism 
initiatives, plainclothes operations, and radiological detection.
    The Port Authority Bus Terminal is the largest bus transportation 
facility in the United States and busiest by volume in the world. The 
PABT serves as the major hub for buses in mid-town Manhattan and 
services commuter lines as wells interstate bus operations. In 2017, 
the Port Authority Police valiantly apprehended Akayed Ullah, who 
detonated an improvised explosive device in an underground corridor 
leading into the PABT.
    The New Jersey Marine Terminals (Port Elizabeth, Port Newark, Port 
Jersey) comprise the busiest container terminal on the East Coast and 
third-largest in the country. In 2018 the port moved over 35 million 
metric tons of cargo, which has consistently grown over the last 10 
years. The Port Authority Police CVI Unit specializes in commercial 
vehicle safety inspections and helps ensure the safe transportation of 
cargo and hazardous materials throughout the port and through other 
facilities. Police patrols are trained in anti-terror, radiological 
detection, and heavy weapons.
    The Port Authority Police have the distinct responsibility to 
protect the approximately 15 acres of the World Trade Center campus, 
where over 3,000 people lost their lives in the terrorist attacks of 9/
11. The Port Authority Police suffered the largest 1-day loss of law 
enforcement personnel when 37 Port Authority Police officers were 
killed on 9/11 during the attempted rescue of thousands of people from 
the World Trade Center site. Today, the campus is home to a variety of 
both Government and corporate entities and is one of the most visited 
locations in Manhattan. The World Trade Center campus contains the 
National 9/11 Memorial. The Port Authority Police aggressively patrol 
the campus utilizing state-of-the-art counterterrorism patrol tactics 
and equipment.
    The department has made significant investments in its 
Counterterrorism/Investigations Branch, which includes the Emergency 
Services Unit, K9 Unit, CVI Unit, and the Counterterrorism Unit. These 
units work closely with local, State, and Federal mutual aid partners 
to enhance advanced response and mitigation capabilities. Furthermore, 
members of the Port Authority Police Criminal Investigations Bureau are 
embedded in Federal and State task forces, including the Joint 
Terrorism Task Force (N.Y. and N.J.) and DEA Task Force (NJ and NY). 
This collaboration provides critical intelligence and helps drive our 
mission. Our Department has one of the largest K9 deployments in the 
country, with 24-hour coverage at all facilities. Additionally, our K-
9's assets are attached to Federal task forces and are often requested 
by our mutual aid partners for patrol-related assistance.
    The evolution of the Port Authority Police over the past year has 
led to the Department being on the forefront of counterterrorism 
policing. Investments in staffing, training, equipment, and technology 
are just part of the Department's aspiration to become the greatest 
counterterrorism police department in the country. For over 91 years, 
the Port Authority Police Department has proudly served the region with 
pride, service, and distinction and will continue that tradition.
    Thank you for the opportunity to speak on behalf of the Port 
Authority Police Department. I will now take any questions.

    Mr. Rose. Thank you, Mr. Klock.
    I thank all the witnesses for their testimony.
    To reiterate something that you just said, this is indeed a 
great team, and we are honored again to have you all here.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for the questions, for the 
first series of questions.
    Mr. Currao, you made an interesting point about outlining 
some of the cuts you would have to make should Federal funding 
decrease. I would ask you just to elaborate on that, if 
necessary, and then I will present the same question to each of 
you. If you could just paint us a picture, $25 million down in 
the last 10 years, what are the consequences if Federal funding 
continues to decline, Federal support, and how would that 
support affect New York City's public safety and that of the 
country?
    Mr. Currao. So, I would answer that in really two main 
ways. One is preparedness. As I mentioned, the Center for 
Terrorism Disaster Preparedness puts together 40 exercises a 
year, and those exercises touch on local level, State, and 
regional level. We work across with many, many agencies, across 
a full suite, a full spectrum of threats. So our ability to be 
able to put together those exercises, not only the quantity but 
the depth of those exercises, would be more challenged because 
we would not have the funding to support that.
    On the other end, from the response mode, the rescue task 
forces, the training that we are on day 3 right now, our 
continual training with our partners in the New York City 
Police Department, would be severely hampered. As I said, we 
train 100 members a week from the FDNY, we train 16 members a 
week from the NYPD, and that is all predicated on the funding 
that we get, and that has a direct impact. We have already used 
these skills, particularly in the West Side ramming. The skills 
we learned in this training helped save lives.
    Mr. Rose. Thank you.
    Mr. Klock. With the understanding that Uncle Sam only gives 
me 5 minutes.
    Mr. Klock. Very good. I will make it 5 minutes' worth. 
Thank you.
    Very similar to what the Chief had mentioned earlier, 
preparedness would definitely be something that we would feel a 
pinch. We have full-scale exercises, not just on the front of a 
disaster or something along those lines, like an aircraft 
disaster or something like that, but we also conduct active-
shooter drills at every one of our facilities throughout the 
year, and they are very realistic. We do them with our partners 
that are seated here, so it is not in a silo. On the Jersey 
side we bring Elizabeth, as well as Jersey City, as well as New 
Jersey State Police and Transit. So it is a shared function.
    We believe that you are only as good as you train. If you 
train hard, you are going to do well on game day. So training 
would definitely be something that we would experience a 
setback. The training that we do is real. They spend a 
tremendous amount of effort and labor on making it as realistic 
as possible, and you would not want to lose that when it comes 
to training because that is really how you are going to respond 
when the bell rings.
    The other portion is strictly putting cops out in the field 
and in operations. Day-to-day, your funding puts a lot of our 
heavy weapons and our tactical people out there in harm's way 
and right on the front. When things begin to have an uptick, 
not just around the city but around the world, we will respond 
in kind when both agencies here ramp things up as a result of 
what is going on around the world. Frankly, we cannot do that 
without your assistance. We put people out not just at airports 
but you heard about all the different facilities. Frankly, that 
comes into hundreds and hundreds of people around the clock, 
and it adds up.
    Mr. Rose. Thank you.
    Mr. Miller.
    Mr. Miller. Without repeating what my colleagues said in 
the interest of time, I think when you look at the contribution 
we make, 85 percent of the cost of running anything in 
Government is personnel costs. We pay that, with the exception 
of reimbursement for the salaries of a few intelligence 
analysts. So it is not as if we do not bear our own brunt here 
or contribute in kind.
    But when you look at the programs I discussed in my 
testimony, the domain awareness system has an operations and 
maintenance cost of $52 million a year. That is primarily a 
counterterrorism system that serves other functions, but it was 
built to protect New York City from National security threats.
    The radiation pagers, the dosimeters, things that were 
supported by Securing the Cities money, which has been diverted 
to other places, would be a concern.
    So UASI money has maintained a relatively steady pace. But 
when we see the port funding, the transit funding, the 
infrastructure protection funding that comes from other places 
decreased by $26.2 million since 2008, the threat is not 
getting smaller, and none of what we do is getting cheaper, and 
when we turn to the city to say we may have to pay for more of 
this, I think you are aware that the city is facing its own 
budget concerns.
    So this is a real concern for us. There was discussion in 
the last administration of cuts up to 40 percent, which was 
foolish and irresponsible. There have been discussions about 
reductions in this administration. We are just saying we are 
trying to maintain safety here, and it has not gotten any 
cheaper.
    Mr. Rose. Thank you.
    I now recognize Mr. Walker, North Carolina, Ranking Member.
    Mr. Walker. Thank you all. Thanks to the panel again for 
the very detailed testimony.
    I would like to jump right into it with a question for each 
witness, and I would like you to keep your responses to about 
20 seconds, if possible, to provide an overview of how you 
coordinate and share information with other jurisdictions to 
improve Nation-wide counterterrorism efforts, of course to the 
extent that you can. Could you just give us a brief overview?
    We will start with Mr. Miller, Mr. Currao, and Mr. Klock.
    Mr. Miller. Sure. We have the Shield Program, which has 
20,000 members. That is the private-sector outreach. We have 
the Sentry Program, which is designed specifically for other 
law enforcement agencies. That has 275 members. It used to be 
the doughnut around New York City, but now it extends all the 
way up and down both coasts and as far west as Texas and 
California. We have our foreign liaisons, which, of course, 
brings it out to the world.
    We are in a constant cycle of exchange of information.
    Mr. Walker. OK, good enough.
    Mr. Currao.
    Mr. Currao. I would have to give as our primary example our 
watch line. It is a weekly intelligence product. It is 1 page. 
It is developed for the fire service and emergency medical and 
first responder community. It goes across the Nation. It has an 
estimated readership of tens of thousands. It also goes to 9 
countries. We have a lot of particular partners like the London 
Fire Brigade, Australia. So that is one of our primary methods 
of sharing intelligence, one of many.
    Mr. Walker. Thank you very much.
    Mr. Klock.
    Mr. Klock. Thank you. I will be brief.
    We have our Criminal Investigation Bureau personnel that 
scour intelligence from around the world to look for certain 
commonalities that have to do with aviation, rail, ports, and 
what they will then do is look for certain trends, and this 
really comes with the help of everyone here at the table. They 
will take that information, disseminate it out to every single 
rank in the department so that they are aware when they go out 
on patrol.
    Mr. Walker. Mr. Miller, if we go back and think about the 
West Side bike attack in October 2017, would you spend about 20 
or 30 seconds and talk about lessons learned about preventing 
and also responding to these types of attacks?
    Mr. Miller. One of the key lessons of the bicycle attack 
was the pre-operational surveillance done by the offender 
there. We had had an incident in Times Square involving a non-
terrorist incident where a number of people were run over on 
the street. We did a renewed program of putting bollards, 
Jersey barriers, and other things to block key sidewalks at 
symbolic targets all over the city. The bicycle path was one of 
those places that had not been considered for that. So if you 
look at that today, it is locked down so that a car cannot 
enter, as are many places since.
    Mr. Walker. Some of my closest friends back in Greensboro 
are Rabbi Fred Gitman and Rabbi Andy Corrin, wonderful people. 
I remember in 2017 when there were hundreds of bomb threats 
directed to the Jewish community. They were later, thank 
goodness, determined to be hoaxes.
    In the midst of this situation, however, obviously there is 
a real need to share information and coordinate--I was a pastor 
for 16 years--to coordinate with religious communities. A lot 
of these churches and synagogues and temples and mosques, they 
never really put together a security team. I was at two mega-
churches. They had a little bit of a service.
    Mr. Klock, would you mind taking that? I may come back to 
Mr. Miller as well. How do we communicate? How do we set up 
something to make sure that, from your perspective, these 
religious institutions are better protected?
    Mr. Klock. Sir, I am going to have to defer to my partners 
here because our operating environment has very little to do 
with religious communities. What we do is take the information 
that we learned from lessons from around the world and truly 
apply them to our facilities. But with respect to reaching out 
and touching the various religious facilities, we do not have 
much interaction.
    Mr. Walker. With 45 seconds, let's split it between the two 
gentlemen here, if we could, please.
    Mr. Currao. So one of the things that we do is we employ a 
red team analysis, and we have been doing this at sensitive 
locations throughout the city. My team, my intelligence 
division from the Center for Terrorism, will go out and 
actually look at an occupancy through the eyes of the 
perpetrator. We will develop a scenario, and we will exercise 
that scenario.
    Mr. Walker. Are you getting that information to the 
religious institution at some point?
    Mr. Currao. Well, we have not done a religious institution 
yet. We just recently did the Atlantic Terminal. But we do work 
with our private-sector partners the whole way. They are 
actually in the exercise, and the lessons learned are 
immediately applicable to any changes.
    Mr. Walker. With a few seconds left, Mr. Miller, would you 
wrap it up?
    Mr. Miller. Sure. We did three important things. One, we 
looked at the threats and determined that myriad calls saying 
that there was a bomb there, that it was going to go off in an 
hour and there were threats and demands, was clearly not a real 
threat. It was designed to scare, to cause disruption and 
panic.
    So we did conference calls with religious institutions and 
said the threat here is not really of a bomb. The threat here 
is to disrupt your daily activities. Here are the procedures to 
go look, and we recommended that they stop doing full-on 
evacuations and closures where there was not additional 
information except threats that fit into this fake pattern.
    The other thing we did was a very competent investigation 
with the JTTF, which led to the identification of one of the 
people making the threats, and ultimately a person in a foreign 
country who was arrested and charged.
    Mr. Walker. Thank you. I yield back.
    Mr. Rose. I thank the gentleman.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who were present at 
the start of the hearing based on seniority on the committee, 
alternating between Majority and Minority. Those Members coming 
in later will be recognized in order of their arrival.
    The Chair recognizes for 5 minutes the gentleman from New 
Jersey, Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, thank you very much for 
inviting me to today's field hearing.
    We truly have three patriots--and I am not blowing smoke, I 
mean it--in front of us today who are witnesses. We know the 
background and we know what they have contributed.
    I have had the honor to work in this field for a long time 
with my good brother Peter King. We worked together on homeland 
security. As an original and founding Member of the Homeland 
Security Committee and co-chair of the Congressional Law 
Enforcement, Congressional Fire Services caucus, I am glad the 
committee remains focused on local efforts to counter this 
enduring threat.
    We will support our first responders because they are on 
the front lines every day keeping us safe. That is clear. That 
is a given. There is no equivocation whatsoever.
    But, you know, I strongly oppose efforts in Washington--
let's get down to the nitty-gritty here--of this administration 
to cut over $600 million in Federal funds for counterterrorism 
programs, equipment, and training at the State and local level.
    For the second year in a row, they have tried to cut nearly 
$200 million from the State homeland security grant program, 
over $200 million from the Urban Area Security Initiative, the 
center part of what we do; over $100 million from 
transportation and port security grants. These cuts are 
outrageous.
    We are pretty good in the Congress at talking out of both 
sides of our mouths, I know. We train for it. But this is 
absurd, unacceptable, and I think that the Chairman of this 
subcommittee within Homeland Security is doing all of us a 
great favor by letting some fresh air in and some light.
    I had a question, Mr. Miller, for you. Domestic terrorism 
in the United States, motivated by right-wing ideologies, has 
grown precipitously in the last decade. According to a recent 
analysis which I read, between 2010 and 2017 right-wing 
terrorists committed a third of all acts of terrorism in the 
United States--that is 92 out of 263--more even than Islamist 
terrorists, 38 out of 263.
    Given this information, has the New York City Police 
Department included domestic terrorism, and has this shift been 
both at the analytical as well as the operational end of what 
we deal with day in and day out? Can I have your response to 
that, sir?
    Mr. Miller. We too have seen the increase in the pitch and 
tone of the vitriol on-line, as well as the attacks across the 
Nation. We are ideologically agnostic, meaning the team, a 
significant team that includes Bill Sweeney, the assistant 
director of the New York Office of the FBI; Brian Parman, the 
Special Agent in Charge of the JTTF--that is over 500 people 
that do this day and night. Add to that 2,000 people from the 
NYPD. So we have no shortage of people to focus on this. But we 
focus on the act, the actions, the plots, and the plans 
regardless of what the cause is.
    So as we have seen the increase around the country, we have 
intensified our gaze in terms of the analysis, the people 
looking at it and searching for any right-wing terrorism here. 
As was discussed in testimony earlier today, we had an 
individual come up from Baltimore and commit a homicide with a 
racial motive purely because New York is the media capital of 
the world. We get that. We have not seen the giant uptick in 
activity here in New York, but we are watching for it. We 
obviously had the spate of pipe bombs in October. We had an 
individual who walked into St. Patrick's Cathedral 2 weeks ago 
with 5 gallons of gasoline.
    So we are keenly aware of this, and our resources shift 
with the threat. With the pipe bomb case that went on in 
Manhattan, which brought the city almost into a crisis as it 
unfolded over the course of a week, there was no 
counterterrorism resource that was spared or not focused on 
that, again regardless of ideology. It was not about the 
ideology, it was about the terrorism.
    Mr. Pascrell. As you know, that part of Homeland Security 
has basically been shut down by this administration in terms of 
domestic terrorism. It does not make any sense to me. Perhaps I 
am missing something.
    Mr. Miller. We asked about that specifically, and what we 
were told is that the same people are doing the same jobs but 
they were shifted around in a reorganization. Regardless of 
that, though, our effort remains laser focused on any plot or 
any threat to the safety of New Yorkers based on any kind of 
terrorism.
    One thing I would put forward to this committee in terms of 
that is there are designated foreign terrorist organizations. 
We live in a country with a Constitution and a First Amendment, 
and it would be very difficult to figure out what is a 
designated domestic terrorist organization, what does that look 
like here. However, I do believe it would be helpful to have a 
domestic terrorism statute where no matter what the cause was 
or what the organization was, or whether it was made up or 
real, that the individual who went to carry out something that 
would be designated or defined under that statute as a 
terrorist act, regardless of cause, could be charged with 
terrorist enhancements that went beyond the simple gun charge 
or the simple conspiracy charge. Remember, if an individual has 
a machine gun and plans to do something for ISIS as a 
designated foreign terrorist organization, they are facing 
telephone-book-level sentencing in Federal court. If the same 
person for a domestic terrorist agenda does the same thing, it 
may be a conspiracy to commit a crime that did not happen with 
a legally registered weapon. We need help there.
    Mr. Pascrell. One quick last question if I may, Mr. 
Chairman?
    Mr. Rose. Yes, you are the boss.
    [Laughter.]
    Mr. Pascrell. Let me ask you this question. Did you get a 
chance to read--it was made public in 2009--the domestic 
terrorism report that was provided to the Congress of the 
United States in the Obama administration? With a great amount 
of pressure from certain organizations, they deep-sixed it 
under Secretary Napolitano. Are you familiar with that 
document?
    Mr. Miller. As I sit here, I am not familiar with that 
specific document. In 2009, I was somewhere between the FBI and 
the DNI.
    Mr. Pascrell. It was started under the Bush administration, 
and they deep-sixed it in 2009.
    Mr. Miller. I could not respond to that specifically.
    Mr. Pascrell. I recommend that we all read that because it 
has pertinence today.
    Thank you. I yield back.
    Mr. Rose. Thank you.
    The Chair recognizes the gentleman from New York, our 
neighbor here on Staten Island, Peter King. Also, on behalf of 
the committee, I thank you for your long-time service to this 
committee and your support for New York.
    Mr. King. Thank you, Chairman. I appreciate that very much.
    I want to thank all the witnesses for being here. In my 
district we lost over 150 friends, neighbors, constituents on 
9/11, and along with Staten Island it is probably the largest 
number of victims. So this is a very close personal issue to 
me.
    I would just say to my good friend Mr. Pascrell, one of the 
reasons we have been successful is this has not been a partisan 
issue. The fact is the biggest cuts of all were made by the 
Obama administration, and we restored them. Last year the Trump 
administration made indefensible cuts; they were restored. This 
year if there are more indefensible cuts, they will also be 
restored. So to me, there have been good guys and bad guys on 
both sides. There was a 40 percent cut under the Obama 
administration, which would have decimated. Last year's cuts by 
the President would have been devastating, and this year's will 
as well. So I think it is important that Congress work together 
in a bipartisan way and stand together, not as Republicans and 
Democrats but as Americans, to make sure that this works.
    I would ask Mr. Miller--again, we are running low on time 
here--can you tell us the significance if we did not have a T-
Band?
    Mr. Miller. In the communications realm?
    Mr. King. Yes, yes.
    Mr. Miller. This is the bandwidth we are using to transmit 
video and data. It would be extraordinarily, extraordinarily 
damaging. Right now, the radio frequency band is full, but the 
way the data transmits, particularly stuff that is essential 
today--video, photographs, and things that take up a lot of 
bandwidth--without T-Band, there is no way to move it 
efficiently in the public safety realm. It is essential.
    Mr. King. Chief, I know the Fire Department has a real 
anxiety over this.
    Mr. Currao. Absolutely. Our radio infrastructure, our 
innovations, are really built on that, and to lose that band 
would be detrimental. It would be very, very difficult and 
would have a severe impact on our operations.
    Mr. King. Superintendent Klock.
    Mr. Klock. Sir, the same would hold true with the Port 
Authority. Thank you.
    Mr. King. John Miller, obviously there is tremendous 
cooperation at this table. I think all of that has improved 
since 9/11. Between the NYPD and the FBI, what is the status 
now of that cooperation?
    Mr. Miller. I was around when they formed the Joint 
Terrorism Task Force in 1980, and I have seen the levels of 
cooperation between the FBI and the NYPD ebb and flow over the 
years. I can say with extraordinary confidence that the 
relationship between the FBI and the NYPD, all the way from FBI 
headquarters to the JTTF in New York, has never been closer or 
literally more seamless. We talk multiple times every day on 
the phone back and forth between the leadership, and given the 
number of our people embedded there, 120, we are literally, the 
NYPD, part of the fabric of the JTTF, not just a participant.
    Mr. King. So you and Bill Sweeney get along very well?
    Mr. Miller. Bill Sweeney and I, Brian Parman and I, the 
ASACs, it has never been closer. That is not to say that there 
is not some disagreement that comes up twice a month over some 
strategy or some case. The difference is at the end of the 
meeting or the end of the phone call, that is settled amicably. 
We choose a way to go together and we go that way, and you do 
not read about it in the newspaper.
    Mr. King. Chief, I was going to ask you about fire as a 
weapon, Mumbai being an example. Before that, just to let you 
know, this Saturday they are naming a street after John Vigiano 
in Deer Park. For those of you who may not know, he was a hero 
firefighter. He lost two sons in 9/11, one a cop, one a 
firefighter. Anyway, that will be, I think, 11 o'clock Saturday 
morning. Saturday? Sunday morning--Saturday morning.
    In any event, can you tell what kind of training is done 
using Mumbai as a base and that type of thing, using fire as a 
weapon? Your coordination with the police and the other forces.
    Mr. Currao. Absolutely. Fire and smoke as a weapon, it is 
one of our most challenging coordination pieces. We have a 
draft document that we co-wrote with the NYPD. It is a draft 
right now. It is a very complicated issue because in order to 
deal with something like fire and smoke as a weapon as part of 
a complex attack, our missions are intertwined, so we have to 
answer a lot of questions about how do we do that effectively 
and safely for our personnel. So we have to control the fire, 
we have to get our emergency medical personnel up into those 
areas, rapidly triage and treat. That is a direct take-off from 
what we are doing right now with our rescue task forces and 
what we call tactical emergency casualty care. We learned a lot 
from the military, and it has helped both our agencies to be 
able to save lives.
    In terms of fire protection, we are looking at different 
ways to be able to apply water from different locations in 
order to be able to, if we can, use the fire protection systems 
within the building. We have actually done extensive testing if 
they attack our fire prevention systems with explosives, how to 
seal those systems so they still work, and we are still looking 
at research at how we can do it with an integrated, coordinated 
team.
    Mr. King. If they are firing weapons at you, you can work 
with the NYPD on this?
    Mr. Currao. That is what we are----
    Mr. King. It is fire and guns, is what we are basically 
talking about.
    Mr. Miller. It is very complicated. We took one of the 
tallest skyscrapers in New York City, and we did a 2-day drill 
that kind of tested the theory of what is firefighting by 
remote control, what is firefighting up close, what does force 
protection look like where you have firefighters in a place 
where there may be terrorists or active shooters or explosives 
and you have police officers who are not used to working in a 
fire environment. This is something we worked on for a long 
time since that day, and I think we are fairly advanced at it. 
It is not complete because of the layers, but we have taken 
enormous strides.
    Mr. King. Thank you all for your testimony.
    Mr. Rose. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
Brooklyn, my friend, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. Let me thank 
our Ranking Member Walker for convening today's field hearing.
    In Congress, I am proud to represent New York's 9th 
Congressional District, otherwise known as Brooklyn, and I 
could not be more excited to be here on Staten Island with my 
colleague, Congressman Max Rose.
    I would like to thank you, our witnesses, for your 
testimony here today and for your years of dedicated public 
service to New York and New Jersey and, of course, to our 
Nation.
    New York City embodies the innovation, dynamism, and 
diversity that make our country special, and that is why it is 
the No. 1 terrorist target in the world. A strike on our city 
is an attack on the values we hold dear as Americans.
    I can remember both the 1993 terrorist attack as well as 9/
11 as though it was yesterday, my father being a Port Authority 
retiree, not only the horror of watching the Towers fall but 
the bravery of our first responders who risked it all in 
service to others. We each owe a debt of gratitude to these 
heroes, and I am honored to have witnesses from the NYPD, the 
FDNY, and the Port Authority Police here with us today.
    Sadly, terrorism has become a multi-headed demon and 
remains an all-too-real threat for our communities. I believe 
that Donald Trump's approach to foreign policy is deeply 
concerning, particularly the recklessness with which we have 
gone about seeking our policy positions, and I believe it has 
also generated a new generation of ISIS fighters, while here at 
home I believe his rhetoric has sparked a deadly wave of white 
supremacist attacks.
    Every day, New Yorkers go about their lives riding our 
subways, visiting houses of worship, not knowing when or where 
terror will strike next.
    We cannot give in to fear; we must confront it. Today's 
hearing is about giving our local first responders the tools 
and Federal assistance they need to keep our city and our 
region safe. We have made great strides since 9/11, but we 
still have much work to do, from improving information sharing 
to enhancing security of our transportation networks. 
Meanwhile, we must also prepare for emerging threats such as 
cyber terrorism, which require new approaches and increased 
vigilance.
    The Statue of Liberty is not just a symbol of our city. It 
is an embodiment of the values that terrorists despise so 
deeply. For those who seek to destroy and traffic in hate, our 
city, filled with immigrants and entrepreneurs, represents a 
perfect enemy.
    I look forward to working with each of you to protect New 
York, to defend our values, at minimum continuing a maintenance 
of effort, at most trying to make sure you have all of the 
resources you need to be an example for this Nation and to keep 
us all safe.
    So I want to start with you, Mr. Miller. You spoke in your 
testimony about the traditional brick-and-mortar terror 
infrastructures that have been replaced with websites, chat 
rooms, and on-line manuals. So much of what is fueling 
terrorist activity is web-based these days. Increasingly 
nefarious activities are fueled by chatter on the web and 
foreshadowed via social media.
    In addition, we know that malicious actors are seeking to 
tamper with our critical infrastructure, and ransomware has 
begun to proliferate in the private sector. Likewise is the 
threat of election tampering through our electronic voting 
machines.
    How equipped is the city of New York to defend us in the 
cyber realm?
    Mr. Miller. So, we have taken, Representative Clarke, giant 
steps in the past--literally in the past 2 or 3 years that had 
not existed before. One critical step was setting up the New 
York City Cyber Command. That is different from DOIT, which is 
the Department of Internet Technology. It is literally a 
protection element within the city's government that looks 
across all the city's networks. We traveled to Los Angeles, 
where they had developed a similar although slightly different 
structure, and we have confronted in a very new way, through a 
task force approach, cyber threats where we have seen cyber 
attacks, cyber infiltrations, cyber incidents, malware, where 
the Cyber Command has been able to bring in the FBI, the NYPD 
cyber people, DOIT and its experts.
    Our cyber people, who are not on the law enforcement side, 
they are on the 1's and 0's side, that has been a big step, 
because we have seen it coming. We saw what happened in places 
like Newark, where they suffered a ransomware attack that was 
disabling. We saw what happened in Atlanta, where they lost 
hundreds of millions of dollars' worth of equipment and 
information, and we have changed our footing significantly. 
That is in the cyber realm.
    In the terrorism realm, we are constantly scanning across 
the darkest corners of the internet, whether it is right-wing, 
left-wing, Islamist. It has become a choose your own adventure 
or, as one of my British colleagues at the Leadership and 
Counterterrorism Conference called it last week, a terror salad 
bar, where you can go from cause to cause and pick and choose, 
but the weaponization of social media has been significant.
    Ms. Clarke. Very well.
    I yield back, Mr. Chairman.
    Mr. Rose. Thank you.
    We have time should any of the Members of the committee 
like another round of questions.
    I will just jump in very quickly.
    Mr. Miller, I want to talk about a supremely local issue 
but something that is incredibly important for the security of 
New York City, and that is the relationship between the NYPD 
and the National Park Service as it pertains to Floyd Bennett 
Field. If you could just give us an update on how critical this 
site is, what you are doing there, and what are the latest 
aspects of your interactions with the National Park Service.
    Mr. Miller. We have a long history at Floyd Bennett Field. 
There was a time in the 1970's when the Federal Government 
wanted to turn Floyd Bennett Field over to the city, and the 
city was in dire economic straits at that point, trying to 
avoid bankruptcy, and could not take the property on, which 
looking back is a shame. It went to the National Park Service 
as part of the Gateway National Area, and the NYPD maintains 
its aviation bureau there. That is critical in a city of 8.6 
million people over hundreds of square miles for the police 
helicopter function.
    It is more critical considering that the Coast Guard air 
wing is now located up in Cape May in New Jersey and up in Cape 
Cod, without much in between.
    So the NYPD is the primary air/sea rescue element that is 
going to get there first. Their facility is at Floyd Bennett 
Field, the Special Operations Division of the NYPD. That is 
emergency service, the strategic response command. It is the 
people that we have that are medically trained. It is our 
active-shooter people, they are at Floyd Bennett Field. The 
driver training program is at Floyd Bennett Field operating on 
what used to be runways. It is a piece of the NYPD's critical 
infrastructure.
    Our history with the U.S. Park Service there has been 
friendly and cordial. We have always had open discussions. But 
where we have asked to maintain facilities that are falling 
down, legacy facilities that we moved into and occupy, where we 
have asked to make improvements to create other structures, 
like an active-shooter simulation training place, a shoot 
house, if you will, where we have asked to repair things that 
are falling down or rusting, we have gotten very cordial 
discussions but ultimately, in every case, been mired in 
bureaucracy that has not allowed us to go forward.
    So we have an aging, borrowed, and failing infrastructure 
there that we would like to make improvements on because it is 
essential to the most important operations of the NYPD.
    Mr. Rose. So, let me get this straight, though. The 
principal threat that we face in New York City today most 
likely is that of a self-radicalized gunman of some type. Would 
you agree with that?
    Mr. Miller. I would agree with that. I would caveat that 
with the idea that the lone wolf is our primary threat. We have 
said that in our own assessment, which I can share with this 
committee on a law enforcement-sensitive basis. But we also see 
al-Qaeda in the shadows trying to rebound. I think if you look 
at the Sri Lanka attacks from last week, what we saw was a 
watershed moment for ISIS, which had been declared out of 
business as a caliphate, as an infantry, and as a terrorist 
group beyond propaganda the week before, and they managed to 
launch a multi-layer, complex attack that killed hundreds of 
people in targets that involved large amounts of explosives, 
weapons, even a training camp that was uncovered in the last 
few days.
    So we face a multi-level threat, and SOD, the people who 
occupy Floyd Bennett Field, are the very pointy edge of our 
spear on that threat.
    Mr. Rose. So this is a threat that is greater now than 
ever, and the National Park Service will not allow you to build 
a complex to suitably respond to a myriad of different threats.
    Mr. Miller. They never say no, and we never get to yes. I 
worked in Washington for 7 years. It could use some help. It 
needs some fixing.
    Mr. Rose. Thank you. I think I speak for the committee when 
I say that that is horrifying, and we are going to work our 
hardest--and please, anyone, disagree with me, if you like. We 
are going to work our hardest to fix that and make sure that 
New York City is prepared to defend itself.
    Mr. Miller. On behalf of the Police Commissioner of the 
city of New York, we appreciate it. We find it very 
frustrating.
    Mr. Rose. Thank you.
    We now recognize again Mr. Walker, the Ranking Member from 
North Carolina, and we thank you so much again for supporting 
New York.
    Mr. Walker. Well, New York sets the example as far as 
security, counterintelligence, and I am happy to be here again 
today.
    One of the areas that we have not talked about at all is 
cyber terrorism. Without making a mistake again as far as which 
one of you--I think maybe Mr. Miller is the one I would think 
would want to address this.
    Obviously, we get hit thousands of times per day by foreign 
entities. We do not always know how much of that is state-
sponsored versus privately. What are you guys doing? What are 
you worrying about a long-term attack from that perspective? 
Would you mind giving us your thoughts in that area?
    Mr. Miller. Our concerns--and these would be the concerns 
of everybody across this table--are two things. One, that we 
face the threat of terrorism and that we have systems and plans 
and kind of a push-button effect of when the bell rings, we are 
all ready to go and we know exactly what we are going to do. 
The threat behind the threat is if a state actor--and remember, 
the U.S. Government just recently designated an Iranian 
military entity, the IRGC, as a designated foreign terrorist 
organization. It shows a state-funded and state-level military 
capability aimed at attacking cities like New York. Hezbollah 
is a client terrorist organization of Iran.
    We have seen a dramatic uptick in our ability to uncover 
Hezbollah activity in New York City examining targets that 
include the airport, the Federal buildings, critical 
infrastructure, transit, and to document those. The only reason 
that these Hezbollah operatives have been given to document 
those is to develop target folders for future attacks. We have 
seen that in Hezbollah's habits in the past, going back to 
1995.
    But if you had that attack that occurred on that day, 
whether it was the lone wolf, multiple lone wolves, an ISIS 
cell as we saw in Sri Lanka, a state actor like Iran, and the 
systems that you use to support the response to that, your 9-1-
1 system, your radio systems, your digital systems that are 
connected to the internet, were attacked either prior to that 
or simultaneously, as we have seen hospital systems go down, 
communications systems go down, Government record systems go 
down, that would be a devastating scenario.
    That is why we have begun in the past 2 or 3 years to 
invest so much more in cyber protection of not the banks--they 
have their own protection. It is about losing millions and 
millions and millions of dollars. We get that. But our focus 
has been on protecting what protects us, and that has been the 
cyber element of critical infrastructure. That is reservoirs, 
hospitals, emergency response systems.
    Mr. Walker. I have often thought if you cannot communicate 
in a crisis like that, you are opening yourselves up for mass 
chaos, and I think that is why we also, with some of the hard 
assets--and we have done a great job of hearing this today. 
Cyber terrorism is something that I am glad to hear that you 
guys continue to be focused on that.
    With that, I yield back.
    Mr. Rose. Thank you.
    We now recognize for a second round, Ms. Clarke from New 
York.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    This question is for Mr. Klock. The Port Authority is 
responsible for some of our region's most important and 
critical infrastructure such as the Hudson River, tunnels and 
bridges, as well as each of our city's major airports. These 
are not only among the most significant terrorist targets in 
our Nation, if not the world, but the screening that occurs at 
these sites determines whether hazardous materials will make 
their way into the rest of our city.
    For many years, we have understood the risk of a bomb 
detonating in a tunnel or on a bridge, or even on an airplane 
or on a PATH subway car that you operate. However, terrorists 
are increasingly turning to technology to further their aims, 
and we must be prepared for the day that terrorists attempt to 
hack a PATH train, commandeer it, derail it, turn it into some 
sort of moving missile.
    Can you discuss your efforts to bolster cybersecurity at 
the Port Authority?
    Mr. Klock. Yes, ma'am. That is a very dynamic question, and 
I would have to, in all likelihood, defer to some of our 
experts in the department when it comes to that. Not to skirt 
the issue or the question, but I know Mr. Miller would have a 
much better answer than myself.
    It is a concern. It is something we live with every day. 
From the patrol perspective, every single officer that is out 
there has their eyes on a swivel, and they are looking for any 
anomalies that go on out there that would possibly springboard 
into this type of activity.
    But with respect to the cyber component, I am going to have 
to defer, if you do not mind, Mr. Miller, if you could touch on 
that on our behalf, please.
    Mr. Miller. Representative Clarke, the key for us has been 
developing the Critical Infrastructure Working Group. This had 
never been done before, only because the need was nascent and 
we had not figured each other out. But that is chaired by the 
NYPD's cyber people and the Manhattan District Attorney's 
Office where you get Con Ed, Department of Environmental 
Protection, Port Authority, Verizon, AT&T. It is a big table, 
but it is everything you do not want to break when the city 
needs it--communications, water, health, emergency responders. 
The Port Authority is a piece of that, and what we do is we put 
all the threat information on the table, we talk about our 
shared experiences and what fixes we have in place, and we try 
to make sure that the system is not dependent on the weakest 
link in the chain, and that has been an incredibly important 
community, not just to exchange threat information but also 
best practices, and also to do drills. This has been done at 
the IBM lab, where you can do a tabletop, where you can 
actually make computer systems fail and have other systems 
break and then have to make critical decisions, where all of 
the players have seen what would happen if multiple systems 
failed.
    Ms. Clarke. Mr. Miller, let me ask you, with the proposed 
budgetary cuts, do you see there being some challenge to 
continuing to maintain that type of a task force working group 
and maintaining a robust, forward-leaning set-up so that you 
can continue to look at these threats as they evolve? Because 
as soon as we practice on one means of being able to address a 
threat, there is someone else working on a threat we have not 
thought about.
    Mr. Miller. The cyber realm, the terrorism realm, is a most 
dynamic threat realm----
    Ms. Clarke. Absolutely.
    Mr. Miller [continuing]. In that it is adaptive and it is 
resilient. The cyber realm moves at the speed of technology. 
Nothing is faster than that. So if you have a completely 
effective meeting on cyber threats, 2 weeks later those threats 
may all be different. So the structured funding we get in 
significant amounts is for counterterrorism. In the cyber realm 
we have not seen the significant funding that it would take to 
build out these efforts, which we have done on our own on a 
shoestring. We have been using forfeiture money from the 
District Attorney's Office, as well as the NYPD's own funds, 
and some of our partners, but this is not a fully-funded 
effort. So when they are talking about cuts, we are going in 
the wrong direction for something that is a burgeoning threat 
if you look at the ransomware numbers or the latest cyber 
numbers which talk about exponential increases in crime, in 
victims, and in monetary losses.
    Ms. Clarke. Very well.
    Mr. Chairman, I would just like to take this opportunity to 
suggest that we drill down on this even further and look at 
ways in which we can alert the administration and perhaps 
legislate in this space. I yield back.
    Mr. Rose. Agreed. I could not agree more.
    The Chair recognizes for 5 minutes the gentleman from Long 
Island, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I would just discuss the mass transit. There are probably 
millions of passengers every day in New York City, I guess over 
1,000 entrances and exits to the stations, another 300,000 on 
PATH, hundreds of thousands more on Long Island Railroad, Metro 
North, Amtrak.
    So I guess I would ask John and Superintendent Klock, Mr. 
Miller and Superintendent Klock, how is the level of 
cooperation on this? I am not looking for any details. I do not 
want to let the enemy know what you are doing, but as far as 
cooperation with yourself, the MTA Police, Port Authority 
Police, and Amtrak Police too, for that matter.
    Mr. Miller. We have a very coordinated cooperation with the 
MTA, with the Transit Authority. As you know, within the NYPD 
we have a transit bureau of thousands of police officers who 
are focused on just that. We have 5.6 million people who come 
through the subway system and who use the buses every day. From 
a crime standpoint, we have roughly 1, 1.5 index crimes a day. 
If it were a city of 5.6 million people with a single serious 
crime a day, it would be a miracle. So it remains a very safe 
system.
    However, terrorists have shown--and I think all we have to 
do is look back to the December 11 attack by Ullah in the Times 
Square Station beneath the Port Authority, where the Port 
Authority officers reached the scene very quickly and knew 
exactly what to do. Some of them had been deployed in theater 
and dealt with suicide bombers in the past with the National 
Guard and the Reserves. Transit remains a fixation on the part 
of terrorists because it is a multiple casualty target and it 
is an economic target.
    We stay focused with random deployments, and they are 
random for a reason. We try to keep a level of unpredictability 
of the people who do the explosive swabs, the explosive 
detection dogs, the long-gun teams, that you see them here, 
then you see them there, and we see them all over the system to 
try and keep people who would be doing pre-operational 
surveillance or assessment off balance.
    MTA Police, great cooperation. Our transit bureau works 
with them closely. Amtrak, great cooperation. New Jersey 
Transit, which you would not assume we would be that close 
with, we have one of their analysts who sits in our 
intelligence bureau going over the threat material every day 
and communicating back and forth. Port Authority, we talk all 
the time between the Port Authority, the State Police, the 
National Guard, about the threat picture at the airport. It is 
a big focus.
    Mr. King. What it reminded me of was the story about Zazi's 
sentencing the other day. It reminded me of how close we came 
to mass murder just 10 years ago.
    Superintendent.
    Mr. Klock. Sir, thank you again. If I can just echo what 
Mr. Miller said, it is rock solid. As I mentioned in my opening 
remarks, the team speaks, communicates, trains, operates, and 
when the bell rings, everybody is together.
    With respect to our sensitivity to transportation, we know 
how vital it is to the region, and we know what would happen if 
something cataclysmic occurred. Our world as we know it, not 
just locally but around the world, would change dramatically. 
That being said, everyone at the table here, as well as all the 
other agencies that Mr. Miller mentioned, we are all hooked 
hand-in-glove, and we get it. We share the intel, and it gets 
all the way--I have said this before--it gets all the way down 
to the cop on the beat because that is the one you want to have 
a vested interest in this and know what is going on so that 
they can spot this and take action immediately, like what 
happened on 12/11 back in 2017.
    So we are all together. We are. Thank you, sir.
    Mr. King. Just on a personal note, if I can conclude, I 
want to thank the Chairman, and also thank the Ranking Member, 
who braved the language barrier and came here from North 
Carolina.
    [Laughter.]
    Mr. King. You are doing pretty well, I have to say.
    Mr. Walker. Thanks. I am getting translations.
    [Laughter.]
    Mr. King. I yield back.
    Mr. Rose. Thank you, sir.
    Gentlemen, last call. Anything else that we can do to 
support?
    Mr. Miller. I think it would be very important most 
particularly for this committee, if any, to spend a couple of 
minutes talking about the threat from drones.
    So, when we were last here on Staten Island talking to this 
committee, and I know Representative King will remember this, 
we talked about the need for a change in the law to have a law 
enforcement carve-out to interfere with unmanned aircraft, 
because prior to that, doing anything to interdict a drone, no 
matter what it was carrying, would have been a Federal crime of 
interfering with aviation.
    Thankfully, and I thank this committee for listening and 
bringing forth that message, we had legislation that came up in 
the fall that gave authority and power to the Department of 
Justice and the Department of Homeland Security to come to 
major events and be able to detect and interdict any drone that 
could pose a threat.
    Since that time, of course, you know we go through a very 
rapid season here. I know Yvette Clarke knows this better than 
anybody, where we leap from the New York City Marathon that 
goes right through your district over to the Thanksgiving Day 
Parade and all the ancillary events that happen in the 
boroughs, to the lighting of the Christmas Tree, to----
    Mr. King. And hopefully the World Series.
    Mr. Miller [continuing]. To the World Series, of course. 
Those are very difficult events to police. You could throw in 
the U.S. Tennis Open game. But these are things where you have 
unmanned aircraft flying over heavy crowds, Times Square on New 
Year's Eve.
    The context is this. ISIS has used these drones in theater 
to drop bombs, to attack U.S. forces, to attack U.S. targets. 
Their propaganda that came up in their magazines over the fall 
and Christmas season featured photographs of drones carrying 
packages over New York City, saying ``We have a present coming 
for you,'' over Paris and the Eiffel Tower, over other American 
targets.
    So I am not suggesting an idea that the terrorists have not 
already figured out in theater or thought about for U.S. soil. 
The FBI, which has the authority to detect and interfere with 
drones, is not going to be able to be at every event across 
this country. It is just not within their bandwidth, and they 
have said no to us zero times when we have asked them for a 
major event. But there are many smaller events where we need 
this kind of protection.
    We need to talk about taking the next step from the fine 
legislation that was passed, which is a step in the right 
direction but requires the approval of the Attorney General of 
the United States to act against a weaponized drone and the 
presence of Federal agencies. This is going to have to end up 
in a place where the Congress finds a way, with the FAA and the 
FCC, because we are talking about aircraft and we are talking 
about radio signal, to grant authority to trained, specially-
trained and certified, let's say by the Federal Government, 
specially-designated State and local law enforcement officers 
who then will have access to the equipment to be able to go 
over an event where they say there is going to be no drone 
flights allowed over this event, New Year's Eve, Christmas, 
what have you. The Super Bowl is a great example. And to be 
able to interdict those.
    Right now, if the FBI is not sitting there with us, and 
there is no particular piece of equipment that works 
effectively on its own--you need a suite of tools here--that 
would require the help of DHS Science and Technology, 
organizations like DARPA from Defense, to develop those tools. 
Right now, we are not much further than we were before. We have 
the advantage in New York of being the 800-pound gorilla who 
can get the FBI Operational Technology Division to come up from 
Quantico for a big event, but there are going to be plenty of 
times when we need that coverage and it is not there.
    Mr. Rose. Thank you for that. That is a scary prospect, and 
it is something we have to seriously consider and figure out 
how to fix this.
    To conclude, I thank the witnesses for their testimony, and 
the Members for their questions. The Members of the committee 
may have additional questions for the witnesses, and we ask 
that you respond expeditiously in writing to those questions.
    Pursuant to Committee Rule VII(D), the hearing record will 
be open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Questions From Chairman Max Rose for John J. Miller
    Question 1. The homeland security threat posed by ghost guns--
unregistered, untraceable firearms sold or assembled without a serial 
number--presents a growing and metastasizing challenge for law 
enforcement.
    What is your agency doing to address the threat posed by ghost 
guns?
    Answer. Fortunately. New York City has not seen the numbers of 
these untraceable guns that other jurisdictions such as California and 
Nevada have but, as we often see in law enforcement, the epidemic seems 
to be moving west to east. We began tracking the recovery of ghost guns 
in the city as a separate category in 2017. We recovered 32 ghost guns 
in 2017, 14 in 2018, and 21 so far this year. The sellers of unfinished 
``80%'' receivers have effectively gamed the system. These receivers 
can be easily machined into fully-functioning, untraceable weapons, and 
you can find instructional videos right on YouTube. The only purpose I 
can see for these guns to exist is to evade law enforcement. There is 
legislation currently before the New York City Council, as well as the 
New York State Assembly and Senate to ban ghost guns, which are net 
positives, but this is a Nation-wide issue. Congress must act to stop 
the supply of these guns.
    Question 2. I have introduced a bill, the Homeland Security 
Assessment of Terrorists' Use of Ghost Guns Act, to require the 
Department of Homeland Security to conduct annual terrorism threat 
assessments regarding the availability of ghost guns in furtherance of 
an act of terrorism. This bill will require DHS to disseminate these 
annual threat assessments to State, local, and Tribal law enforcement.
    Will additional information from the Department of Homeland 
Security regarding the threat posed by ghost guns assist your agency's 
work in combating this growing homeland security threat?
    Answer. Information is power in law enforcement. Any additional 
intelligence would be invaluable to our mission of keeping dangerous 
weapons out of criminals' hands. Our collaboration with DHS is on-going 
and one of our most valuable assets. The work already being done by the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives to track the 
proliferation of these weapons Nation-wide is a valuable tool for the 
NYPD to anticipate the inevitable influx of these weapons into our 
city. And as I previously testified, the NYPD's involvement in the 
Joint Terrorism Task Force, the Federally-funded Domain Awareness 
System, and the embedded DHS Intelligence Analyst at NYPD headquarters 
enable us to share information in real time.
           Questions From Chairman Max Rose for Thomas Currao
    Question 1. The homeland security threat posed by ghost guns--
unregistered, untraceable firearms sold or assembled without a serial 
number--presents a growing and metastasizing challenge for law 
enforcement.
    What is your agency doing to address the threat posed by ghost 
guns?
    Answer. Response was not received at the time of publication.
    Question 2. I have introduced a bill, the Homeland Security 
Assessment of Terrorists' Use of Ghost Guns Act, to require the 
Department of Homeland Security to conduct annual terrorism threat 
assessments regarding the availability of ghost guns in furtherance of 
an act of terrorism. This bill will require DHS to disseminate these 
annual threat assessments to State, local, and Tribal law enforcement.
    Will additional information from the Department of Homeland 
Security regarding the threat posed by ghost guns assist your agency's 
work in combating this growing homeland security threat?
    Answer. Response was not received at the time of publication.
          Questions From Chairman Max Rose for Louis P. Klock
    Question 1. The homeland security threat posed by ghost guns--
unregistered, untraceable firearms sold or assembled without a serial 
number--presents a growing and metastasizing challenge for law 
enforcement.
    What is your agency doing to address the threat posed by ghost 
guns?
    Answer. Response was not received at the time of publication.
    Question 2. I have introduced a bill, the Homeland Security 
Assessment of Terrorists' Use of Ghost Guns Act, to require the 
Department of Homeland Security to conduct annual terrorism threat 
assessments regarding the availability of ghost guns in furtherance of 
an act of terrorism. This bill will require DHS to disseminate these 
annual threat assessments to State, local, and Tribal law enforcement.
    Will additional information from the Department of Homeland 
Security regarding the threat posed by ghost guns assist your agency's 
work in combating this growing homeland security threat?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
